<html>
<title> - LEWIS, NEWELL, AND ABBEY NOMINATIONS</title>
<body><pre>[Senate Hearing 111-79]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 111-79
 
                  LEWIS, NEWELL, AND ABBEY NOMINATIONS

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

THE NOMINATIONS OF WILMA A. LEWIS, TO BE AN ASSISTANT SECRETARY OF THE 
 INTERIOR; THE NOMINATION OF RICHARD G. NEWELL, TO BE ADMINISTRATOR OF 
THE ENERGY INFORMATION ADMINISTRATION; AND THE NOMINATION OF ROBERT V. 
         ABBEY, TO BE DIRECTOR OF THE BUREAU OF LAND MANAGEMENT

                               __________

                              JULY 9, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
51-880                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Abbey, Robert V., Nominee to be Director of the Bureau of Land 
  Management.....................................................     8
de Jongh, Jr., Hon. John P., Governor, U.S. Virgin Islands, 
  Charlotte Amalie, VI...........................................    30
Ensign, Hon. John, U.S. Senator From Nevada......................     1
 Lewis, Wilma A., Nominee to be Assistant Secretary of the 
  Interior.......................................................     5
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Newell, Richard G., Nominee to be Administrator, Energy 
  Information Administration.....................................     7
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

                                APPENDIX

Responses to additional questions................................    33


                  LEWIS, NEWELL, AND ABBEY NOMINATIONS

                              ----------                              


                         THURSDAY, JULY 9, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 2 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Committee on Energy and Natural 
Resources will come to order. I would like to inform those 
gathered that the Senate is undertaking a vote. In order to 
keep on track I'm going to ask Senator Ensign to begin the 
committee hearing by providing an introduction for Mr. Abbey.
    Senator Ensign, the floor is yours.

          STATEMENT OF HON. JOHN ENSIGN, U.S. SENATOR 
                          FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman. I appreciate that 
all. If ok with you I would submit my full statement for the 
record.
    Senator Udall. Without objection.
    Senator Ensign. Just kind of talk based on my experience 
with Bob Abbey. Bob and I have worked together over the years 
with over, you know, or close to 90 percent of the land in 
Nevada owned or controlled by the Federal Government. A large 
percentage of that is by the Bureau of Land Management.
    Bob Abbey played a very significant role in my State. Over 
the years, you know, we were kind of the home of the old 
Sagebrush Rebellion and various other things like that. Bob 
handled a lot of those kinds of different parties involved who 
have very different ideas of what should happen with public 
lands.
    I thought Bob did a great job on bringing people together. 
No better place than that than the public lands bills that we 
worked on together with myself and Senator Reed and other 
members of the delegation that, you know, brought everybody 
from environmental groups and in our State we have very far 
left environmental groups to kind of, you know, more on the 
right type of environmental groups. We have, you know, hunters 
and multi-use people and miners and you know, and developers, 
local governments, state governments, Federal Governments, all 
of those folks together.
    Bob has been the representative there for the Federal 
Government, I thought did a really super job on bringing people 
together and showed great leadership at that time. I found him 
to be a man of integrity and really a straight shooter. That's 
obviously what we need as somebody at the head of the BLM.
    So I, you know, highly recommend him. I'm glad to see him 
getting this opportunity. I think it's something that he richly 
deserves. I'm looking forward to working with him in the future 
simply because there is no other State that this is a more 
important position than my State.
    Every Western State it's really important. But just on a 
percentage basis it's a real critical position for my home 
State of Nevada. So I appreciate this hearing. Hopefully we'll 
be able to move his nomination process as quickly as possible 
and to get him in there leading this vital agency.
    So I thank you for allowing me to testify today. Bob, good 
luck. I'm going to say it prematurely, I don't think you're 
going to have any problems. So good luck in your new position.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Ensign. I think that at 
least there's two votes here to move this nomination forward 
for Bob Abbey. But thank you again, Senator Ensign.
    If I might because the Senate is voting at this point in 
time and there are no other members of the committee here, I'm 
going to provide for a short recess. I'll go to the floor and 
vote and return as quickly as I can. So if the nominees will 
hold their fire, we look forward to hearing from you in 
probably 15 minutes. I'll be back. So the committee stands in 
recess.
    Senator Udall. The Senate Committee on Energy and Natural 
Resources will come to order. Thank you for your forbearance. 
We had a vote on the floor on Senator McCain's amendment. We've 
been joined by Senator McCain and by Ranking Member Murkowski.
    We meet this afternoon to consider three nominations for 
offices in the Department of the Interior and the Department of 
Energy.
    The three nominees are Wilma Lewis, to be the Assistant 
Secretary of the Interior for Land and Minerals Management.
    Richard Newell, to be the Administrator of the Energy 
Information Administration within the Department of Energy.
    Robert Abbey to be the Director of the Bureau of Land 
Management at the Department of the Interior.
    All three of these offices are of great interest to members 
of this committee and are of critical importance to our 
country. We're very fortunate to have three extremely well 
qualified nominees for these positions.
    The Assistant Secretary for Land and Minerals Management is 
responsible for overseeing the management of public lands and 
resources including the production of energy and mineral 
resources and the collection of Federal oil and gas royalties. 
The Department's Inspector General has uncovered serious 
ethical problems in the royalty program in recent years. Ms. 
Lewis will bring to the job many years of experience as a 
former Inspector General and a United States Attorney for the 
District of Columbia, as well as an Associate Solicitor in the 
Department of the Interior, the Comptroller for United States 
territories. She partnered a major law firm and most recently 
the General Counsel of the Federal Home Loan Mortgage 
Corporation.
    This extraordinary combination of legal, law enforcement 
and managerial experience along with her well earned reputation 
for personal integrity and high ethical standards make Ms. 
Lewis an outstanding choice for this critical post.
    The Administrator of the Energy Information Administration 
is responsible for collecting, evaluating and analyzing a broad 
range of economic and statistical information about the 
nation's energy needs and resources. We rely heavily on the 
Administrator to provide us with accurate, reliable and 
unbiased data and projections. Dr. Newell is a distinguished 
energy economist, who has served as a Senior Fellow at 
Resources for the Future, as a Senior Economist on the 
President's Council of Economic Advisors during the previous 
Administration and most recently as a professor of Energy and 
Environmental Economics at Duke University.
    He will bring to the EIA extensive experience in the 
economics of energy, environmental markets, climate change, 
energy efficiency and market based environmental policies.
    Finally, the Director of the Bureau of Land Management is 
responsible for managing over 250 million acres of public land 
in the West and 700 million acres of subsurface mineral estate. 
Mr. Abbey worked for the BLM for 25 years. The last 8 in which 
he spent as the BLM's Nevada State Director. He has clearly 
demonstrated his ability to manage BLM offices by having 
already managed his Nevada State Office with distinction.
    In short the President has nominated three outstanding 
individuals for these important positions. I support all three 
and am pleased to welcome them this afternoon. I would 
actually--I got a little ahead of myself.
    So I'd like the three nominees to come to the witness table 
if you would. When you're seated and comfortable I will turn to 
Senator Murkowski for her statement. I got excited about 
hearing from you all and didn't give you a chance to join us at 
the witness table.
    Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Welcome to all 
three of you this afternoon as well as your families. There's a 
lot going on at this point in time. I think you know. So I'm 
not going to spend any time with an opening statement other 
than to welcome you.
    The chairman has outlined the qualifications of each of 
you. You come to your respective positions with high 
qualifications for the positions for which you are nominated. 
There is no shortage of important issues that we have to talk 
about and I look forward to posing some questions to you, 
hearing your responses and continuing our discussion as we move 
through the process.
    So thank you all.
    Senator Udall. Thank you, Senator Murkowski. At this time I 
would like to make an announcement that the rules of the 
committee, which apply to all nominees, require that you be 
sworn in connection with your testimony. So would each of you 
stand and raise your right hand?
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    [All witnesses answered in the affirmative.]
    Senator Udall. You may be seated. Before you begin your 
statements, I would ask three questions that I would address to 
each nominee before the committee.
    Will you be available to appear before this committee and 
other congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    [All witnesses answered in the affirmative.]
    Senator Udall. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    Ms. Lewis. Thank you, Senator. My investments, personal 
holdings and other interests have been reviewed both by myself 
and the appropriate ethics counselors within the Federal 
Government. I've taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest or 
appearances thereof to my knowledge.
    Senator Udall. Mr. Newell.
    Mr. Newell. All of my personal assets have been reviewed 
both by myself and by appropriate ethics counselors within the 
Federal Government and I've taken appropriate action to avoid 
any conflicts of interest.
    Senator Udall. Mr. Abbey.
    Mr. Abbey. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I've taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interests or appearances thereof to my 
knowledge.
    Senator Udall. Let me move to the third and the final 
question. Are you involved or do you have any assets held in a 
blind trust?
    Ms. Lewis. No.
    Mr. Newell. No.
    Mr. Abbey. No.
    Senator Udall. Thank you for participating in those 
important preliminary steps. We'd like to now turn to Ms. 
Lewis. If you'd like to introduce any family members that would 
be more than appropriate and then we would welcome your opening 
statement.

    STATEMENT OF WILMA A. LEWIS, NOMINEE TO BE AN ASSISTANT 
 SECRETARY FOR LAND AND MINERALS MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Lewis. Thank you very much, Mr. Chairman. Yes, I would 
like to introduce some family members. Over here to my left 
first my far left is my nephew, Erin Lewis.
    Sitting next to him is my mom, Juta Lewis, a retired 
Assistant District Director of Customs for the Virgin Islands. 
Sitting next to her is my brother, Warren Lewis and he is the 
Executive Officer at Interpol here in DC. Sitting next to 
Warren is a very good family friend, we consider a part of the 
family, Arabela Lassford, who flew in from the Virgin Islands 
for the hearing today. She is also with the Customs Service in 
the Virgin Islands.
    I thank them for being here and for their love and their 
support. Mr. Chairman, if you would, I'd also like to thank 
other friends for being here and certainly the wonderful team 
at the Department of the Interior, who are always here to 
support us.
    Senator Udall. Thank you and welcome to your family 
members. Ms. Lewis, if you'd like to deliver your statement, 
please feel free to do so.
    Ms. Lewis. Thank you, Mr. Chairman, Senator Murkowski, 
Senator McCain, members of the committee, it is a special honor 
to appear before you today as the President's nominee for the 
position of Assistant Secretary for Land and Minerals 
Management at the Department of the Interior. If confirmed by 
the Senate this would be the third time that I've had the 
privilege of serving the people of the United States in a 
Presidentially appointed Senate confirmed position. The second 
time that I've been afforded this opportunity at the Department 
of the Interior.
    If confirmed I would bring to the many challenges of the 
Assistant Secretary position the fruits of my educational 
background, the litany of skills and experiences amassed during 
my 28 year professional career and a strong and unwavering 
commitment to public service. I would request Mr. Chairman, 
that my entire written statement be placed in the record of 
these proceedings. In the interest of time, I will just read 
portions of that statement.
    Senator Udall. Without objection, so ordered.
    Ms. Lewis. Thank you. I was born in Santurce, Puerto Rico, 
and grew up in St. Thomas, U.S. Virgin Islands. During my high 
school years I decided that I would pursue a career as a 
lawyer. During these formative years and thereafter I was 
influenced greatly by strong, a very strong, family tradition 
of public service.
    My late father, Walter Lewis, with over 40 years of 
government service. My mother, whom I just introduced, Juta 
Lewis, with 30 years in government service. My brother, whom I 
also introduced, Warren Lewis, still toiling away after over 35 
years in government service.
    I saw in the shining examples set by each of these loved 
ones the kind of strong and positive work ethic, undying 
dedication, distinguished service and uncompromising integrity 
that public service demands and so richly deserves. From my 
high school days, therefore, I looked forward to the 
opportunity. Not only to become a lawyer, but also to devote a 
portion of my career to public service and to emulate those 
special qualities exhibited by those nearest and dearest to me.
    Following graduation from All Saints Cathedral School in 
St. Thomas with high honors and as valedictorian of my senior 
class, graduation from Swarthmore College with a Bachelor of 
Arts degree with distinction and election to Phi Beta Kappa and 
from Harvard Law School with a Juris Doctor degree, I embarked 
on my legal career. During my 28 year professional career I 
have worked in the private sector as both an Associate and a 
partner in the corporate sector and for over 15 years with the 
Federal Government. I've also served as an adjunct faculty 
member in trial advocacy and on various boards, commissions and 
committees.
    I believe that the totality of my professional experience 
renders me well equipped to handle the myriad responsibilities 
and challenges of the Assistant Secretary position for which I 
have been nominated.
    First, I've had a broad range of legal experience. From my 
various professional opportunities I developed the ability to 
be a quick study, to exercise reasoned judgment, to analyze 
complex issues and to engage in effective problem solving. I 
also developed a pension for economy, efficiency, effectiveness 
and integrity in government operations.
    Second, as a former United States Attorney for the District 
of Columbia and a former Inspector General for the Department 
of the Interior, I developed a solid law enforcement background 
and gained extensive experience in providing strong leadership 
and effective management in major Federal agencies. While 
serving in these capacities I was responsible, among other 
things, for establishing and implementing the vision, 
priorities and major initiatives for the organizations, high 
level decisionmaking and problem solving, promoting excellence, 
productivity, integrity and accountability within the 
organization and also for fostering productive relationships 
with diverse groups of individuals and entities on behalf of 
the organizations. Undoubtedly these experiences would be 
invaluable as an Assistant Secretary.
    Finally, as the Associate Solicitor for General Law and 
subsequently the Inspector General for the Department of the 
Interior from 1993 to 1998, I became familiar with various 
programs and operations of the Department. Of particular note, 
while serving as Inspector General from 1995 to 1998, I 
launched the Office's Affirmative Civil Enforcement program. 
Among the proactive initiatives launched under that program 
were ones involving the underpayment of royalties on Federal 
mineral leases, the recovery of delinquent coal reclamation 
fees owed by surface coal operators and an environmental 
initiative that focused on violations of the Outer Continental 
Shelf Lands Act.
    I believe that this prior experience would be of great 
asset to me in the position of Assistant Secretary. I would 
consider it an honor and welcome the opportunity to return to 
public service as the Assistant Secretary for Land and Minerals 
Management at the Department of the Interior. If I'm confirmed 
I would embark upon this next chapter of my professional career 
with a clear understanding of the tremendous responsibility 
that we shoulder as public servants with a keen appreciation 
for the great privilege that it is to serve the public and with 
an unwavering commitment to the high ethical and other 
standards that should always be our guide.
    Thank you for the opportunity to appear before you today. I 
would be pleased to answer any questions that you may have.
    Senator Udall. Thank you, Ms. Lewis. Mr. Newell, the floor 
is yours. If you would like to introduce any family members, so 
please feel free to do so.

STATEMENT OF RICHARD G. NEWELL, NOMINEE TO BE ADMINISTRATOR OF 
             THE ENERGY INFORMATION ADMINISTRATION

    Mr. Newell. Thank you very much, Mr. Chairman. First, I'd 
like to introduce my wife, Bonnie and our daughters, Rose and 
Ella. Thank them for their love and support. Unexpectedly my 
sister-in-law, Amy and my niece, Cora are also here and several 
friends. So I very much appreciate them being here.
    Mr. Chairman, Ranking Member Murkowski, distinguished 
members of the committee it is an honor and a privilege to 
appear before you today as President Obama's nominee for 
Administrator of the Energy Information Administration. I'm 
grateful to the President and to Secretary Chu for their 
confidence in trusting me with this important assignment.
    As you know the mission of the EIA is to provide policy 
neutral data, forecasts and analysis to promote sound 
policymaking, efficient markets and public understanding 
regarding energy and its interaction with the economy and the 
environment. Created by Congress in 1977, EIA is the 
statistical and analytical agency of the Department of Energy. 
As such as the Nation's premier source of unbiased energy data, 
analysis and forecasting, EIA collects and disseminates a wide 
range of energy information covering energy production, stocks, 
demand, imports, exports, prices, technologies and emissions.
    EIA also prepares short term forecasts, long term 
projections and other analyses and special reports on topics of 
current interest to Congress and to the executive branch. By 
law EIA prepares products independently of policy positions 
taken within the Federal Government. I feel strongly about this 
independent role that independent, unbiased and open minded 
information and analysis can and should play in helping guide 
wise energy decisions both within the public and private 
sectors.
    My undergraduate study in engineering and philosophy showed 
me the value of technically rigorous problem solving as well as 
a reasoned approach to dissecting alternative viewpoints on 
very complex issues. In graduate study and in my professional 
career I turned upon economics, statistics modeling and other 
tools of policy analysis to understanding the operation and 
design of energy and environmental markets and policies. Along 
the way I've worked in both the private and non-profit sectors, 
for government and most recently in academia.
    For many years I was a Senior Fellow at Resources for the 
Future, a non-profit, non-partisan organization that conducts 
independent research on energy and environmental issues. During 
2005 to 2006, I served as Senior Economist for Energy and 
Environment on the President's Council of Economic Advisors 
which offers the President independent, economic advice based 
on objective economic research and empirical evidence. I have 
also been involved in a number of other efforts including the 
bipartisan National Commission on Energy Policy and several 
energy studies undertaken by the National Academies.
    I am currently professor of Energy and Environmental 
Economics at Duke University's Nicholas School of the 
Environment and also Associate up there with the Fuqua School 
of Business. By while I work at Duke I live in Chappel Hill. 
Despite President Obama's position on the issue, I remain non-
aligned when it comes to Carolina/Duke basketball.
    [Laughter.]
    Mr. Newell. More seriously, if confirmed I intend to bring 
an open mind and a fresh perspective to the challenges facing 
EIA. EIA has many accomplishments and a proud history, but 
improvement is always possible and necessary. I see a number of 
opportunities for ensuring that EIA information analysis is 
always outstanding, responsive and readily accessible.
    One priority is continually updating EIA's short and long 
term modeling platforms based on the best internal and external 
data and methods available. The forecasts, projections and 
policy analyses based on these models are very widely used in 
the private and public sectors and must be held to the highest 
standards.
    Another priority is improving EIA's information base and 
analytic capacity for understanding and assessing the 
interrelated roles of fundamentals, financial market behavior 
and other factors in energy price formation.
    Also critical is reinforcing EIA's data collection efforts 
including on energy demand and newly emerging technologies and 
fuels.
    There are other opportunities as well. If confirmed I look 
forward to working with members of this committee and others 
both inside and outside of government in order to improve the 
information analytical base used for making sound energy 
decisions.
    Thank you for this opportunity to appear before the 
committee. I look forward to working with you in the future.
    Senator Udall. Thank you, Mr. Newell. Mr. Abbey, I want to 
turn to you now. But before I ask you to introduce any family 
members and give your statement, I did want to note for the 
committee members who arrived after the vote that Senator 
Ensign did provide a heartwarming and thoughtful and ringing 
endorsement of your nomination to head the Bureau of Land 
Management.
    So the floor is yours. If you would like to introduce any 
family members, it would be appropriate to do so.

  STATEMENT OF ROBERT V. ABBEY, NOMINEE TO BE DIRECTOR OF THE 
                   BUREAU OF LAND MANAGEMENT

    Mr. Abbey. Thank you, Mr. Chairman. I certainly appreciate 
Senator Ensign taking time out of his busy schedule to 
introduce me to the committee. My wife had the option of 
attending this session today or being with our 3 year old 
grandson. She chose the higher priority. So I have to give her 
credit for that.
    But on the way over here, Wilma Lewis' family adopted me. 
So I appreciate your support today.
    [Laughter.]
    Mr. Abbey. Thank you, Mr. Chairman, Senator Murkowski and 
members of the committee. I'm truly honored that President 
Obama and Secretary Salazar have demonstrated their confidence 
in me by nominating me to lead the Bureau of Land Management. 
It would certainly be a great privilege to serve our country as 
the next BLM Director. If confirmed I pledge to work closely 
with the Secretary, with Members of Congress and most 
importantly with public land stakeholders to manage the 
public's land and mineral resources.
    I have 32 years of experience working in State and the 
Federal Government. I spent 25 years serving the public as an 
employee with the BLM working in Wyoming, Arizona, Washington 
DC, Mississippi, Colorado and Nevada. Our family moves so often 
that my wife still thinks the BLM stands for Better Like 
Moving.
    I was fortunate to work with many dedicated employees at 
each location. But I've also been blessed with the 
opportunities to work with outstanding members of the public, 
many of who are just as passionate about and dedicated to the 
proper management of public lands as BLM employees. I 
understand that my nomination has been supported by a diverse 
group of public land stakeholders. I am proud of this fact.
    Managing the national system of public lands for multiple 
uses is not easy, by any means. Acknowledging that many 
stakeholders have valid reasons for some of their differences, 
I know from working in the field that we actually have much in 
common. Most of us want public lands to be managed in a manner 
that will provide for clean water and air and a healthy 
environment for plants, animals and people.
    We want productive and sustainable ecosystems. We want 
available energy resources both renewable and non-renewable to 
be developed responsibly and in a manner that will help us 
achieve our national goals of reducing the impacts of climate 
change, carbon emissions and a reliance on foreign oil. We 
support opportunities to use public lands for recreational 
pursuits and in a manner that helps sustain communities and 
local economies. Most of us want the BLM to place as much value 
on our nation's wilderness and cultural resources as we do on 
mineral exploration and development.
    I believe we can achieve our common goals and better serve 
the public by working together while we continue our 
discussions on issues where we might disagree. I know full well 
that many challenges lie ahead. For example, of special 
concerns today are wild fires, our changing water and land 
base, impact to public lands caused by irresponsible users and 
the spread of invasive species. While these issues are daunting 
and significant in their own right I am just as concerned about 
addressing internal issues within the BLM itself.
    If confirmed I will be a hands-on director and will ensure 
that BLM leaders lead and managers manage, helping to ensure 
that important decisions are reached based upon the best 
available information and in a timely manner. We will work 
closely with local, State, tribal and other Federal agencies as 
we do our very best to meet the management goals and the 
public's expectations.
    I take great pride in the work that we, as an agency, 
accomplished during my 25 year period with the Bureau of Land 
Management. For almost 4 years now I've worked as a Natural 
Resource Consultant in the private sector. I've gained a 
different perspective of our natural resource agencies and 
their processes during this period. I believe this recent 
experience in the private sector will help me be a better 
agency administrator.
    Mr. Chairman, if confirmed it will be my goal to move 
aggressively in managing BLM programs to help meet the energy, 
mineral and recreational needs of our nation while at the same 
time assuring the sustainability and ecological health of our 
nation's most precious cultural and natural resources. I 
appreciate the opportunity you've given me to testify today. I 
stand ready to answer any questions you may have.
    Senator Udall. Thank you, Mr. Abbey. We will now turn to a 
round of questions. I would note that this is an impressive 
turnout of Senators from the West, from the far West and from 
the near West. As Senator Shaheen is of course from New 
Hampshire.
    I'm sitting in as a surrogate for Senator Bingaman. He had 
a statement that he wanted me to direct to Ms. Lewis and a 
short question to Dr. Newell. Then I had two short questions 
and I will turn it over to the ranking member.
    But as I've said, Ms. Lewis, I don't have any questions for 
you. But I would like to mention several issues that Senator 
Bingaman raised. I share his concern about several issues that 
will be waiting on your desk once you are confirmed.
    They are No. 1, addressing the problem of Mountain Top 
Removal.
    No. 2, making certain that the MMS gets back on the right 
track.
    No. 3, ensuring good inspection and enforcement and sound 
environmental compliance for oil and gas development on Federal 
lands.
    No. 4, reforming the mining law of 1872.
    No. 5, putting in place a program to reclaim abandoned hard 
rock and uranium mine sites.
    This is a daunting list. But as I said in my opening 
remarks I believe you're up to the challenge. I look forward to 
working with you.
    Mr. Lewis. Thank you, Senator. I look forward to working 
with you as well.
    Senator Udall. Dr. Newell, I want to turn to the price 
bubble that we saw last year. I think it's fair to say that 
before that bubble emerged that EIA may have failed to 
appreciate the connection between the financial and physical 
oil markets and thus failed to anticipate the unprecedented run 
up in crude oil and gasoline prices last summer. Would you 
agree that the EIA needs to bolster its ability to understand 
the connection between the physical oil market and the 
financial oil market? I would also like to hear about the 
connection between the financial oil market and oil price 
formation.
    Mr. Newell. I absolutely would agree that EIA has a very 
important role to play in making the best information and 
analysis of the very conflicts, interrelationships between 
supply and demand fundamentals, other commodity markets and the 
broader financial market system as it relates to energy prices. 
I think that it's going to be important for EIA to both 
increase analytic capacity in this area. Also do a better job 
of explaining for policymakers and a broader public about the 
dynamics of these energy market prices as it's unfolding.
    Senator Udall. Thank you. I think this is a very, very 
important topic. On this committee there's been robust debate 
and discussion about what really happened last year and why oil 
approached $150 a barrel when the underlying fundamentals 
didn't seem to support that price.
    We're really going to look to you for help in understanding 
that and preventing that sort of run up in the future. Thank 
you for that answer.
    Mr. Abbey, I will turn to you. I have two questions, 
particular my interests. I alluded to this in the comments I 
directed at Ms. Lewis as well.
    In the West we've got thousands of contaminated mine sites. 
Colorado has almost innumerable sites, of course, as does 
Nevada and the States that are represented here. We need to 
clean them up. Can you tell me how many abandoned mines and 
contaminated sites exist on BLM land? How much funding you're 
allocating or would allocate to address these sites? What are 
the obstacles in cleaning them up?
    Mr. Abbey. There's several different figures going around. 
I've seen several just in preparation for this hearing. I've 
read this morning that there's approximately 20,000 abandoned 
mines with contaminates on public lands managed by the Bureau 
of Land Management. That figure may be even higher.
    It's also my understanding that in 2009 that the Department 
of the Interior received in the neighborhood of $29 million to 
help mitigate many of these abandoned mine land safety hazards. 
I am familiar with the Bureau of Land Management and the 
Department of Interior having a five strategy to move forward 
aggressively in addressing the needs to clean up as many of 
these mine sites as possible during that 5-year period. If 
confirmed it's something that we will give one of the highest 
priorities to because we certainly recognize and understand the 
safety hazards associated with these mines and it's way past 
time that the Bureau of Land Management addresses that issue.
    Senator Udall. Thank you. Let me ask a follow up question 
in that regard. I've taken a real interest in this through the 
years in the Congress, first in the House and now here in the 
Senate. I've drafted legislation that would authorize the EPA 
and the States to issue so called Good Samaritan permits.
    The law would come at the obstacle of the Clean Water Act 
liability exposure to those who had no responsibility at a mine 
in the beginning stages. But they could then come in and clean 
it up without assuming that liability. Would the BLM benefit 
from such an approach? Could you be supportive of this 
legislative effort?
    Mr. Abbey. Mr. Chairman, the BLM would not only benefit, 
but it's my understanding that they have taken a formal 
position of supporting such legislation as far as providing for 
Good Samaritan permits. Again, if confirmed I'd be happy to 
work with you and the many others to move forward with language 
in any type of mining law reform that might come before the 
Congress to incorporate such Good Samaritan language in that 
bill.
    Senator Udall. There's a lot of pent up demand in wanting 
to do this work, volunteer groups all over my State. I'm sure 
over in Senator Barrasso's State, Senator McCain, Senator 
Murkowski. In the Northeast I'm sure there's sites as well. So 
I look forward to working with you to make this a reality.
    Mr. Abbey. Thank you.
    Senator Udall. Let me turn to the ranking member, the 
Senator from Alaska.
    Senator Murkowski. Thank you, Mr. Chairman. Mr. Abbey, 
we'll start with you.
    Mr. Abbey. Ok.
    Senator Murkowski. We, in the State of Alaska, are 
celebrating our 50th anniversary of statehood. When we became 
State back in 1959, we were promised 104 million acres of land. 
Then when the Alaskan natives settled their land claims in 
1971, they were additionally promised some 44 million acres of 
land.
    Thirty-four or 38 years later, for the natives, and 50 
years later for the State, we're still waiting on these 
conveyances. Fifty-four percent of the State's lands have been 
fully transferred. Fifty-seven percent of the native land has 
been transferred.
    I figured back in 2004 when I came to the Senate that that 
was plenty of time----
    Mr. Abbey. Yes.
    Senator Murkowski [continuing]. For the Federal Government 
to deliver on its promise to our natives and to the State of 
Alaska. So I introduced legislation and it was passed, so the 
Alaska Land Conveyance Acceleration Act became law.
    Unfortunately we haven't had as much support as I would 
have liked over these past few years to get the conveyances 
complete. We put a deadline of 2009 for completion. I would 
like to hear whatever assurances you can give me as to the 
administration's interest in pursuing these and finalizing 
these conveyances and just give me the commitment that you will 
be working with the State of Alaska and Alaska natives to 
complete the promises.
    Mr. Abbey. That's a great question, Senator Murkowski. I do 
understand, due to your legislation that you introduced in 2004 
and the Congress passed that is provided the Bureau of Land 
Management with much needed additional tools to expedite that 
conveyance process. It is also my understanding again, based 
upon the information that's been provided to me in preparation 
for this hearing, that the Bureau of Land Management in Alaska 
has stated that they are on track to meet their commitments by 
December 2009.
    So if you know of something that's different than that, I 
would certainly appreciate hearing about it. I will do 
everything that I can, once confirmed, to work with you to make 
sure that the Bureau of Land Management focuses the appropriate 
attention to resolving these lands actions and move forward 
aggressively to meet those commitments.
    Senator Murkowski. I appreciate that statement. What has 
happened is that there have been tentative conveyances. But as 
you and I know if there remains a cloud, if it is not fully 
conveyed you cannot utilize that land whether it's for resource 
development or whatever the nature of the use may be.
    So in fact if you look at the spreadsheet we have made, 
we're still only at 54 percent of the State's lands, 57 percent 
of the native lands actually conveyed. These are my statistics, 
but I have every reason to believe that these are accurate and 
up to date.
    We have some issues. I'm sure that the Alaska BLM folks 
will be further briefing you, but I would love the opportunity 
to discuss with you and your staff here how we might further 
encourage the complete conveyances of these lands. I think most 
of us would agree that 50 years to complete land conveyance is 
plenty of time. But we want to work with you on that.
    Let me ask you, Ms. Lewis, within the Department of the 
Interior your background as you relate to the committee is 
quite extensive. You certainly have some very real management 
skills. How do you envision the internal allocation of 
resources within the DOI budget? Specifically how you might 
prioritize Alaska interests?
    You might think well, this is pretty parochial, but 61 
percent of the total wilderness within this entire country is 
located in Alaska. We've got nearly 40 percent of all the 
National Park Service lands that are located in Alaska.
    So you'd think that if you're looking at the percentages of 
the pie, we would get a greater percentage of DOI budget. But 
it turns out that there's just barely a couple percent of DOI 
budget that's spent on managing Alaska holdings. The holdings 
within DOI are about 210 million acres.
    So I'd like to try to understand just a little bit about 
what your philosophy might be in budget allocations in the 
future?
    Ms. Lewis. Thank you, Senator Murkowski. Budget and 
resource allocation is always a tricky business. I think it 
really takes a careful look at not only one piece of a puzzle, 
but the entirety of the puzzle to be able to make informed 
decisions about how resources should be allocated in terms of 
dollars, in terms of people and manpower and so forth.
    What I would like to do, if confirmed as Assistant 
Secretary is to go in and take a look at our entire budget. How 
it is currently allocated. Why it is currently allocated in the 
way that it is. Try to come to my own judgment as to how I 
think we should best proceed.
    I think at this point I'm at a disadvantage to answer that 
question in any detail. I wouldn't dare to try to do that 
without the necessary factual information. I guess I'm the type 
that I like to gather the facts. I like to hear the rationales 
for what might be doing and go forward based on an assessment 
in that way.
    So I would commit, if I'm confirmed, to go into take a hard 
look at that in light of what you have said here today. Make a 
decision in terms of how the resources both from a budget 
perspective and otherwise should be properly allocated.
    Senator Murkowski. That's fair. I don't mean to try to set 
you up at all. But there is a recognition that when it comes to 
the number of people or when it comes to the number of staff 
that we have, we just don't measure up.
    When you appreciate the extent of the lands that DOI 
manages within one State, it almost takes your breath away. So 
I put that before you as you do this analysis to just have in 
the back of your mind. If we can provide any assistance to you 
we're certainly happy to do so.
    Thank you, Mr. Chairman.
    Mr. Abbey. Thank you, Senator.
    Senator Udall. Thank you, Senator Murkowski. Let me now 
recognize the Senator from New Hampshire, Senator Shaheen, in 
two ways. I'm going to hand the gavel to her as I'm called upon 
to go preside on the full Senate floor.
    So Senator Shaheen will serve as chair as well. But she is 
now recognized. Thank you.
    Senator Shaheen [presiding]. Thank you, Senator Udall. 
However, I will take the gavel. I would actually like to 
disclaim having New Hampshire being called the near West.
    [Laughter.]
    Senator Shaheen. Dr. Newell, my first question is for you. 
As I'm sure you're aware the energy bill that this committee 
passed recently expanded the EIA's role in overseeing the 
energy futures market and created a Financial Market Analysis 
Office within the EIA. As Administrator you would personally 
participate in a working group on energy markets that assesses 
the factors driving the price of oil and recommends regulatory 
improvements for our energy markets.
    I wonder if you have thought yet about the whole issue of 
oil speculation and the role that this new office would play 
within EIA and that expanded role. How you think that office 
could best address concerns that I think many of us have had 
about the kind of speculation that, I believe, we saw last year 
with respect to oil markets?
    Mr. Newell. Thank you, Senator, for that question. This is 
an important question because, as you know, increasing energy 
prices can have a profound impact on household budgets and can 
also pose risks for the U.S. economy and broader global 
economies. So this is an issue I think is being taken 
seriously.
    In terms of the specific legislation that was voted out of 
this committee. I've looked at it briefly. I've been briefed 
somewhat on it. I don't know all of the details.
    In terms of the general issue of whether or not it makes 
sense for EIA to have additional capacity to analyze these 
issues and help yourselves and the broader public understand 
energy price dynamics as it's unfolding. I think that's 
absolutely something that EIA should be doing. In terms of the 
organizational structure that would be most effective in 
achieving that end? I'm not immersed yet in terms of where the 
particular pockets of expertise are within the administration.
    But I think the most important thing there is having the 
right people and the right data to do it. So I would be looking 
forward to figuring out exactly what the best way to increase 
that capacity would be.
    In terms of interagency working group and cooperation I had 
a brief conversation with Chairman Gensler at the CFTC which is 
another important agency.
    Senator Shaheen. Right.
    Mr. Newell. Specifically one that has regulatory 
responsibility in terms of overseeing these markets. We've 
definitely agree that it's very important for EIA to continue 
to work together at the analytical level, at the level of 
sharing information to make sure everybody is well informed. So 
again, whether or not that requires an official interagency 
committee?
    Whatever happens we will be working together on that 
regardless of whether a bill is passed. So I welcome that. 
There's other agencies as well that we'll have to be in close 
coordination with.
    Senator Shaheen. Do you have thoughts about how to make 
that information as transparent as possible? It seems to me 
that one of the most important things we can do to avoid the 
kind of speculation that we saw last year is to make people 
aware of what's going on.
    Mr. Newell. Yes. So one of the things that I think I would 
pay closer attention to, if confirmed at EIA, is playing a 
greater role in interpreting the information that is provided 
by EIA as those market dynamics are unfolding. EIA does some of 
that. But I think could do more in terms of explaining what 
those dynamics are, explaining the roles of, you know, market 
fundamentals, supply and demand, changing geo-political 
factors.
    There's other changes in related commodity markets and 
broader trends within financial markets. We were covering the 
global economy uncertainty about the rate of United States 
economic recovery and the broader global economic recovery. So 
I think that EIA has an important role to play in explaining 
and helping folks to understand what's happening in these 
markets because without that proper understanding it's 
difficult to formulate good policy, I would think.
    Senator Shaheen. Thank you.
    Mr. Abbey, I appreciated what you said in your testimony 
about the important and often difficult task of engaging 
diverse stakeholders and how to deal and how to use public 
lands. One of the things that is being looked at is a whole new 
transmission system for the country. The designation of how 
transmission lines are taken across public lands I think 
highlights the challenge that you were talking about.
    How would you envision working with other Federal agencies 
and stakeholders in addressing transmission citing issues on 
public lands?
    Mr. Abbey. Senator I know nothing is easy. But it is a 
matter of applying a little common sense. The way to do so in 
my successes to date, as little as they may have been, has been 
based upon bringing in all the stakeholders early into the 
process, understanding what the potential conflicts may be, in 
this case, along proposed transmission alignments.
    Once you have a better understanding of what those 
conflicts might be then you have a, at least a chance, of 
success to move forward and address the proposals with the best 
available information that exists and also with the assurance 
that the public has had the benefit of offering their input. 
Therefore they have bought into the process.
    You know, in response to your direct question. Defining and 
locating transmission lines across the public lands, the BLM is 
the right organization or the agency to do that, the bureau to 
do that. Under the rights of way authority the Bureau of Land 
Management has everything that they need to do the proper 
planning, the analysis to identify what the potential impacts 
are of such transmission lines on the public lands and to come 
up with appropriate mitigation to offset or at least somewhat 
limit the impacts associated with the building of those 
transmission lines.
    But again, the fact of the matter is the BLM in concert 
with the public and with the industry itself needs to go 
forward as quickly as we can. Make some key decisions in the 
very near future.
    Senator Shaheen. Thank you. We have a--ok, good. Great. 
Thank you.
    I'm going to ask Senator McCain to go next and then turn 
the gavel over to Senator Wyden because I also have to leave.
    Senator McCain. Thank you very much, Madam Chairman. 
Congratulations and thanks for your willingness to serve in 
these very difficult and challenging times. Ms. Lewis, Mr. 
Abbey, are you familiar with the Southeast Arizona Land 
Exchange and Conservation Act that's been before the Congress? 
We had a hearing on it on June 17. Are you familiar?
    Ms. Lewis. No, Senator. I'm not familiar with it.
    Senator McCain. Mr. Abbey.
    Mr. Abbey. I'm not familiar with the specifics. I 
understand that legislation or at least the proposal has been 
introduced.
    Senator McCain. Thank you. We did have a hearing. In fact, 
Senator Wyden was here. This legislation was first introduced 
in 2005.
    We've had four hearings in the Senate. Previously both the 
BLM and the Forest Service had testified in favor of the 
legislation. Then on June 17 they said they needed to study it 
some more.
    At that time Senator Wyden said he expected to hear from 
them within 2 weeks. It's now been 3 weeks. So I think we have 
a right to get a response from the administration on that 
issue.
    I will look forward to your response as quickly as 
possible. Until such time then I will not approve of your 
nomination moving forward through the committee. So I hope 
you'll be able to get those answers to us as quickly as 
possible.
    I thank you, Mr. Chairman.
    Senator Wyden [presiding]. I thank my colleague. Senator 
Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. 
Congratulations to all three of you and to your families. 
Welcome to the families.
    Ms. Lewis, Mr. Abbey, thank you very much for taking the 
time to come and visit with me. I think we had very productive 
discussions. I wanted to start by talking about multiple use of 
the land because, as you know, the BLM was founded to manage 
Federal lands under a multiple use mandate.
    The statute requires the agency manage, and I'll quote, ``A 
combination of balanced and diverse resource uses that takes 
into account the long-term needs of future generations for 
renewable and non-renewable resources, including, but not 
limited to, recreation, range, timber, minerals, watershed, 
wildlife and fish, and natural scenic, scientific and 
historical values.'' I mean, that's a lot. But that's what 
we've been tasked with.
    Those are the challenges that we face. Many of us in the 
West feel strongly about the erosion of multiple use over the 
years. I'd like to know each of you intends to balance these 
competing interests that we're facing when it comes to Federal 
lands, if you could.
    Ms. Lewis, if you want to go first, then Mr. Abbey, and we 
can go back and forth.
    Ms. Lewis. Thank you, Senator Barrasso. Thank you for 
taking the time to meet with me as well. You are correct. We 
all recognize the great challenge of managing multiple uses of 
the nature that you have described, uses that are not only 
multiple in their nature, but conflicting in their nature in 
many instances.
    I think that in terms of managing these multiple uses some 
of the most important things that we'll have to do is to 
continue to try and continue to try to improve on our efforts 
to gather as much information as possible. To listen very 
carefully, because there are obviously are a lot of different 
concerns that would be brought to the table in the attempt to 
make the appropriate balance and strike the appropriate balance 
and draw the right lines. So listening is very important.
    Gathering the information is very important. I would, if 
confirmed, be committed to trying to make those judgments on 
the basis of as much information as possible that we can 
achieve. These are the types of decisions that in many 
instances you can never get full--that you cannot make everyone 
happy is the bottom line.
    I think as we sit in decisionmaking that we have to try to 
make the best judgments we can based on the information we 
have. I would pledge to do that, if confirmed as Assistant 
Secretary.
    Senator Barrasso. I appreciate your comment. I'll get to 
you in a second, Mr. Abbey. Because I think you hit the key 
word when you said, often these are conflicting.
    There is some polarization, creating ideological beliefs on 
a number of these issues. So it isn't always just getting all 
of the information and trying to, you know, balance it. There 
are really fundamental differences in the belief of how we 
protect the land for future generations and how to best use 
multiple use to manage all of these benefits that we've been 
tasked with.
    So I appreciate your recognition that there are actual 
conflicts. That a lot of times it comes down to, you know, 
commitment and belief and going back to the fundamental statute 
that requires the agency to manage along the lines of balance 
that we need.
    Ms. Lewis. That's correct, Senator. Let me just add I think 
that at the end of the day sometimes there are policy 
influences that come into play in making the decisions. We have 
to take those into account as well.
    Senator Barrasso. Thank you. Mr. Abbey, if I could ask you.
    Mr. Abbey. Senator, one of the reasons why I stayed with 
the Bureau of Land Management for 25 years was because of its 
multiple use mandate. I believe the Federal Land Policy 
Management Act is one of the best pieces of legislation that's 
ever been enacted by Congress. But I'm a little biased along 
those lines.
    Certainly not every acre managed by the Bureau of Land 
Management is appropriate for oil and gas leasing. Not every 
acre managed by the Bureau of Land Management is suitable for 
wilderness designations. The best place to address multiple use 
on public lands is through the very public land use planning 
process. So that you can work through the potential conflicts 
and come out with the best decisions and giving the opportunity 
for the public to play a role in that decision process.
    I am a proponent and a strong advocate for multiple use on 
public lands. If confirmed, I will continue to be so.
    Senator Barrasso. Great. I wanted to ask a little bit when 
we visited in the office both of you with me on the 
applications for permits to drill. As you know that there is a 
huge backlog in getting through the paperwork.
    The BLM offices in Wyoming have noticed it, in particular 
the one in Buffalo, Wyoming. Applicants currently have to pay 
$4,000 for each application, for each application. So it can 
become very, very expensive.
    Many of these are very small producers. They aren't big 
energy companies. It is especially troubling to these 
companies, these individuals who do this when they pay that fee 
because one is the fee, but also they don't hear back. Often 
they're hoping to either get a yes or a no. They just want a 
timely response.
    Now the administration is proposing raising that fee from 
$4,000 to $6,500 without any assurance, any assurance, that 
people paying these, even increased fees will receive timely 
responses. As we all know the money isn't going to your agency 
to help deal with the backlog. It's going into, you know, some 
big Washington account. Someplace that's not helping you.
    But it does seem that if we're asking these folks, small 
business owners around the country, to pay these increasing 
fees, that they ought to at least be able to get a timely 
response. Then I know you want to both respond and then I'll 
run out of time.
    Ms. Lewis. Yes, Senator. I understand your concern about 
this. I think one of the things that's most frustrating to 
citizens is non-responsiveness of government, particularly when 
payments are being made.
    If I'm confirmed, that's certainly one of the issues that I 
would seek to address, responsiveness, efficiency, 
effectiveness in our operations are three of the things that I 
think are very important. To the extent that we can search for 
other ways to be more efficient, I think as an agency we should 
always be trying to do that. I will seek to explore those new 
avenues if I'm confirmed as Assistant Secretary.
    Senator Barrasso. Thank you. Mr. Abbey.
    Mr. Abbey. I certainly think and support what Wilma said. 
Having worked in the private sector for the past 4 years as a 
consultant, I too, have been frustrated with the lack of timely 
responses to questions that have been asked or to applications 
that are before the Bureau of Land Management. As I alluded to 
in my opening remarks that is going to be one of the priorities 
that I will take on, if I'm confirmed as the next BLM Director.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague. I want to welcome our 
nominees as well. I'm going to have a number of questions in 
the forestry area and minerals management area that will take a 
bit longer than 5 minutes. So I want to recognize my friend, 
Senator Murkowski for her questions at this time.
    Senator Murkowski. Thank you. I appreciate that. I just 
have one more round for everybody and then I will wrap up.
    Mr. Abbey, a question to you. You had a discussion here 
with Senator Barrasso about multiple use of public lands, which 
is obviously very, very important to us. You may know that this 
committee has passed legislation that would allow the Secretary 
to establish a competitive leasing program for wind and solar 
projects. But the Secretary has to establish first that it is 
in the interest.
    So the question to you is whether or not you think that 
competitive leasing of public lands for solar and wind is in 
the public interest. Also, if you can just speak very quickly 
to some of the challenges that we are facing in the siting of 
what could be very large wind and solar projects or 
installations. if they're next to recreational areas or 
national parks. If you can just speak to that, please.
    Mr. Abbey. I'll try. Senator Murkowski, I understand that 
Secretary Salazar is open to further discussion regarding this 
little range of options for dealing with the number of 
applications for solar projects that are before the Bureau of 
Land Management right now including the potential of looking at 
some sort of leasing program or competitive program within the 
right, under the existing rights of ways authority. So if 
confirmed I'd be--I would look forward to working with the 
Secretary to come out with at least some recommendations that 
could be thoroughly reviewed to determine whether or not we can 
become more efficient and receive a better return for the 
American taxpayers for the use of their lands for these types 
of projects.
    As far as challenges that we all face in reviewing and 
approving renewable energy projects like solar and wind, the 
primary challenge that I see is the large footprints associated 
with many of these projects. Whether you're talking about wind 
projects or solar projects on public lands, many of the 
applications that are before the Bureau today would include 
quite a bit of public lands that would be dedicated for that 
specific use. So it's important that we would take actions up 
front to try and find the best locations on the public lands 
that would not only serve the purpose of solar energy proposals 
and our wind proposals, but would be on those areas where there 
would be fewer conflicts.
    If we're successful in dealing with the initial siting 
issues then I do believe that we will be more successful in 
coming up with appropriate mitigation for any projects that 
would be approved.
    Senator Murkowski. You have recognized the inherent 
conflict in what we're trying to advance. It's certainly 
important that we move forward with our renewable energy 
projects. Our reality is is that some of the best places to 
site these wind and solar installations are on our public 
lands. So how you balance that will be a real challenge for 
you.
    Ms. Lewis, a question for you on royalty relief. When you 
were the Inspector General of the Department President Clinton 
signed the Deep Water Royalty Relief Act. In my opinion that 
act has certainly been helpful to this country. Its passage led 
to tremendous production of American oil and natural gas.
    Yet in the FY 2010 budget the administration is seeking to 
end royalty relie, even though, in my opinion, that works to 
reduce domestic production at a time when I feel very strongly 
we need to do all we can to enhance that. Can you tell me 
whether or not you support the continuation of royalty relief 
or whether you will seek to end the incentive if you confirmed 
as Assistant Secretary?
    Ms. Lewis. Thank you, Senator Murkowski. At this point I 
could not give you an answer on that question. Obviously the 
administration has taken a position with respect to that 
matter. As of now that is the position of the administration.
    Certainly if this matter is one that involves further 
discussion and if I'm confirmed and a part of those discussions 
certainly I would be voicing my opinion after having been fully 
informed as to the----
    Senator Murkowski. Would you agree though that passage of 
the Royalty Relief Act in 1995 did help to spur domestic 
production?
    Ms. Lewis. I believe that that is the case, Senator 
Murkowski. But I believe we have to look for 1995, I believe is 
when you said it was, to the present and make assessments based 
on what is the best at this particular time. I am not 
sufficiently familiar with all of the considerations that went 
into play in making the determination. But if confirmed I 
certainly would get up to speed on those issues and have a view 
on it.
    At this point the administration has taken its position. I 
cannot comment further with respect to a personal view on that.
    Senator Murkowski. I think many of us feel that it has been 
exceptionally useful as a policy in spurring that production. 
We would certainly encourage it.
    Ms. Lewis. I would be interested, Senator, in certainly 
having further conversations with you on it.
    Senator Murkowski. Maybe we can do a follow up 
conversation. That would be good. I would welcome that. Thank 
you.
    Then very quickly, one last question to you Mr. Newell. The 
EIA has developed this computer model, the NEMS, the National 
Energy Modeling System, to help with the forecast of energy 
usage and prices. I think it's fair to say that this model is 
important for a lot of different reasons.
    But as we move forward in the debate over climate change 
and energy policy it seems to me that this NEMS model in the 
climate change debate could be very critical. I recognize that 
as we discuss these issues we've got to make sure that we have 
a real understanding in terms of the economic impact. We don't 
want to use false assumptions or use models that perhaps are 
just not as healthy as we would want when we're talking about 
the health of the American economy relying on forecasts that 
perhaps might not be entirely accurate.
    How much confidence should we have in this model being 
accurate? I know that puts you in a situation of trying to look 
a little bit into a crystal ball because when it comes to 
climate change we're predicting out over four decades. Do we 
have the confidence levels in these models that we can 
reasonably rely on the numbers that you generate?
    Mr. Newell. Thank you. This is a very important question 
because as you pointed out the results that come out of the 
NEMS model are used widely within the public sector and also in 
the private sector for understanding how different policies 
will affect the energy markets and broader economy. 
Specifically with regard to the role of NEMS and other similar 
models and climate policy analysis there's a number of 
different types of assumptions and variables that are important 
determinates of the results of these models.
    One is the assumptions that embody the structure of the 
model.
    The other are the assumptions that you're making about the 
policy that you put into the model. So what is the amount of 
offsets under a cap and trade system? A number of other 
different policy design variables.
    Finally there's different assumptions about how the future 
is going to unfold in terms of what do you think natural gas 
prices are going to be or what do you think the relative 
competitiveness of coal based power relative to nuclear power 
is going to be. There's a lot of uncertainties and assumptions 
that need to be made. I think one of the most important things 
in NEMS, in any model, is being very transparent in what those 
assumptions are so everybody can see exactly what the 
assumptions are. I think that's very important.
    The other, in terms of these, I think these models are/can 
be quite useful. I think the way that they're most useful is 
understanding how changing the different assumptions both in 
terms of policy design and other conditions and how those 
influence the results, not necessarily the single estimate of a 
core scenario that comes out of a particular modeling exercise. 
But looking across the range of different modeling scenarios to 
understand what are the key drivers of the results. That's 
where I find the results most useful both for NEMS and for 
other modeling results that I've looked at.
    Senator Murkowski. I think it's going to be very, very 
important as we move forward in this debate. Typically what 
you'll do is you'll take that model that gives you the number, 
the dollar amount, the cost that is most favorable to your 
argument. If there is a greater degree of reliability with 
whether it's the NEMS model or other models that are coming out 
of EIA, again, I think that adds a little bit of truth in 
advertising.
    But we need to be able to rely to the best extent possible, 
recognizing that we are trying to predict an unpredictable 
future. Thank you for the indulgence. I thank the nominees for 
their time this afternoon and for their willingness to serve.
    Mr. Newell. Thank you.
    Senator Wyden. I thank my colleague. Let me join Senator 
Murkowski in thanking the three of you. I missed the 
introduction of families. But it seems that there's a lot of 
pride there in the first row. So we appreciate that.
    Let me start with you, Ms. Lewis, if I could. I'm going to 
go into the areas that we talked about in my office that I told 
you I would get into here this afternoon. As you know the 
Interior Department was just riddled with corruption I the last 
few years. That was where Jack Abramoff was, Steven Griles, 
Julie McDonald, the list just goes on and on.
    Of course the Minerals, you know, Management, you know, 
Service, was a particular problem. The head of the Minerals, 
you know, Management Service, if you're confirmed is going to 
be reporting to you. So what I'd like to do is start here with 
a sense of what you plan to do to clean up the mess there.
    Can you give us some insight into your plans to clean up 
the Minerals Management Service which as you know was the 
subject of just scathing, you know, audits. You know, audits 
about problems with conflicts of employees and sex and money 
and you name it, hiring and the like. The list just went on and 
on. I mean documented problems.
    So give me your sense of what your plans are to go in 
there, Minerals Management, and clean it up.
    Ms. Lewis. Thank you, Senator Wyden. During our 
conversation I may have mentioned to you that integrity in 
government operations has always been something that I have 
been very, very focused on. I think that started not with being 
the Inspector General or being the United States Attorney for 
the District of Columbia but from way back.
    I explained in my opening statement that I come from a 
family of public servants. The integrity of, you know, the 
manner in which they exercised their responsibilities with 
integrity was something that I was always very proud of. I 
associated public service with integrity.
    As Inspector General and as United States Attorney those 
positions in particular gave me the opportunity to put into 
play what I had long felt about what public service should be 
all about and the high standards that public servants should be 
held to. I would, if confirmed, come into this position with 
those same, deeply held, views. I believe that and it is 
certainly no question that there have been a number of issues 
and a number of reports on problems over the last several years 
at the Department.
    I guess I would first want to look to see the extent to 
which recommendations that have been made have in fact been 
implemented. Examine that. Make sure that those recommendations 
are in fact implemented to the fullest degree.
    But I think beyond that it's important not only to fix 
something on a temporary basis, but to make sure to have 
permanent fixes. I think first leading by example is an 
important thing.
    Second, making sure everyone is clear about the important 
responsibilities that we shoulder as public servants. The 
awesome nature of the responsibility that it is, the public 
trust that we hold. Make sure they understand what that means 
in terms of their everyday responsibilities.
    The fact that they are there as public servants to make 
sure that our programs and operations work the way they should 
with integrity, with accountability. Those are the kinds of 
things that I would focus on. Making sure that that message is 
clear to everyone within the jurisdiction that I am responsible 
for.
    So my example, making sure that we have clear 
understandings of what public service really is about. Making 
sure that we have constant training on these issues and making 
sure, and I know that the team that would be in place there, 
that I hope would be in place, would be people who would 
believe these and act them in their everyday responsibilities. 
Those are the kinds of things that I would want to do to make 
sure that fulfilling the recommendations is not only something 
that we do and then turn our backs on. But really keep moving 
forward with a service that has integrity and that has 
accountability and that we can all be proud of.
    Senator Wyden. I very much appreciate your outstanding 
background and long history of public service. What I'm trying 
to do is get a little bit more in the way of specifics, in 
terms of what's going to be done to turn this problem around. 
For example, the former Inspector General, Earl Devaney, issued 
some scathing reports with respect to what has gone on there.
    I mean, for all practical purposes, he said on the royalty 
issue that was asked about earlier. MMS adopted a policy 
according to the Inspector General that pretty much abandoned 
the need to audit oil and gas companies to make sure that they 
actually pay royalties. So why don't--my way of trying to get a 
bit more in the way of specifics. What was your reaction when 
you read these audit reports put out by the former Inspector 
General?
    Ms. Lewis. Let me just say at the outset that I have not 
read all of the reports. But I am aware that there are reports. 
I'm aware that the reports clearly indicated that there were 
significant problems.
    As I stated at the outset, there is one issue in terms of 
going in and ensuring that recommendations that were made to 
correct those problems have in fact been worked on. You 
mentioned policies or practices of the MMS. Certainly we have 
to take a look at those policies and practices as we go forward 
and make sure that those policies and practices are consistent 
with appropriate policies for the government.
    If you're asking me about specifics I think before giving 
specifics, before identifying what the correction is to the 
particular problem, one needs to make sure one understands, 
one, what the problem is.
    Two, exactly where the Department is or the Bureau is in 
rectifying that problem.
    Three, what else might need to be done to rectify it.
    If I'm confirmed I would go in and do precisely those three 
things.
    One, make sure I've read all of the reports.
    Two, look and see where it is that we are with respect to 
addressing the recommendations.
    Three, look at what else needs to be done.
    Let me say, Senator, if I could. When I was in the running 
for the United States Attorney position and I became United 
States Attorney, because I have feelings as strongly as I do 
about integrity and public service I had decided from before I 
went into the office that public corruption would be one of the 
highest priorities that I would have. But before I could decide 
exactly what needed to be done in that area, I needed to get 
into the position and see what the office was doing at the time 
with respect to the public corruption issues.
    At the end of the day when we looked at the record, we saw 
that within the first 3 years convictions on public corruptions 
had doubled over the preceding 2 years. That's what I'm saying. 
I have a firm belief in what it is to be a public servant and 
what we should be doing to ensure integrity. But before I can 
sit and say to you that I want to take these three actions or 
these four actions. I feel more comfortable getting a clear 
indication of exactly where we are at this time.
    Then looking to see where we need to go. That's what I 
would want to do if I'm confirmed as Assistant Secretary.
    Senator Wyden. You have a very fine record, Ms. Lewis, as I 
noted in terms of past efforts. My last question simply dealt 
with your reaction to the Devaney reports, the GAO reports. 
These are very thorough documented case after case.
    I think I will expect to ask you the same questions before 
not too long again because I really do want to know at least 
your reaction to those reports. These are reports that were 
widely available. Your point about all the recommendations you 
might pursue after you've seen the reports is one thing.
    But I do want your reaction to the reports.
    Ms. Lewis. Senator, I can say to you right now that based 
on what you've read and based on what I have--I am made to 
understand, not having read all of the reports. There were 
significant problems that weren't covered. My reaction is that 
I'm appalled by that. I'm always appalled whenever we have 
problems in government service. We uncover that kind of 
behavior or a lack of integrity. I'm appalled.
    But I think we need to go beyond the fact that I'm 
appalled. That what I was trying to respond to is what I would 
given the fact that we all would agree that those are the kinds 
of significant problems that we don't want to have among our 
government employees.
    Senator Wyden. Let's move on. I'm going to offer on MMS 
issues, Ms. Lewis, some additional questions in writing.
    Senator Barrasso and I introduced legislation to make the 
MMS position a confirmable position. We'd like to hear your 
thoughts again by way of just trying to get some inkling of how 
you're going to approach this. I think part of what has 
troubled me is that this has gone on for so long.
    It's gone on really through two administrations that when 
I'm trying to evaluate what's going to happen in the days 
ahead. I say to myself, I'm sure impressed with Ms. Lewis' 
record of fighting corruption in the past. But I still have an 
obligation as a United States Senator to get some kind of sense 
of what's going to be done to go in there and as I told 
Secretary Salazar to drain the swamp.
    So we'll have this conversation some more. I'm going to 
want to have your reaction after you've had a chance to get 
through those reports.
    Ms. Lewis. Thank you, Senator. I look forward to chatting 
with you more about it. My hope is that after I've had an 
opportunity to review what's there that not only would I tell 
you, but what you see in terms of the result will make you more 
comfortable.
    Senator Wyden. Very good. Let's move on to a bit of 
forestry activity. We can get you a bit involved in this 
discussion, Mr. Abbey.
    As you know the Bureau of Land Management manages a lot of 
our land in the State of Oregon. They're responsible for two 
million acres of really extraordinary, you know, forests in the 
western part of the State. Those are the lands known as O and C 
lands.
    They are important for old growth, clean water and of 
course they're critically important for the sharing of revenue 
with local county government. Now the agency under the last 
administration underwent a large planning effort for what was 
known as the Western Oregon Lands Program, the whopper program. 
Suffice it to say this has generated a great deal of 
controversy.
    At this point there are legal challenges from both the 
timber industry and from environmental groups and the 
administration has already made it clear it's looking at 
various options for dealing with this. Now I thought it was 
very constructive that the Department sent officials out to 
Oregon recently to look at the issue first hand. I spoke with 
Secretary Strickland about it.
    I was wary as I've indicated to both Secretary Salazar and 
Secretary Strickland about meddling in the last administration, 
really political meddling. I'm very much concerned that we now 
have the future decisions based on sound science. But also a 
decision that incorporates the importance of O and C lands 
which have been so vital to Oregon's past and frankly our 
opportunities for the future.
    Fairly shortly I plan to introduce legislation to move 
forest management on Federal lands in Oregon beyond a lot of 
these old conflicts. This is of urgent priority given 
unemployment in our State, a backlog of forests that need 
management. The land management agencies, you know, tied in 
knots. We've got to find a way to go forward.
    So give me some insight about how you're going to promote 
new management approaches that are going to give a chance to 
break the gridlock and find this path forward for forest 
management.
    Mr. Abbey. Wow. Senator, that's an excellent question. I am 
aware of the significance of those forest lands in Oregon. I 
understand how important they are to the economies of that 
State as well as the entire Pacific Northwest.
    I have not had an opportunity to review those existing 
plans that are in place or those proposed plans in place. So I 
really don't know the quality of the decisions that came out of 
those plans. I am aware of the litigation that has been filed 
by really both sides of the issue. Those that would like to see 
more timber harvested and those that would like to see less 
timber harvested.
    If we're to be successful in moving forward with new ideas 
and maybe a different strategy in managing these lands we have 
to use the land use planning process to do so. Now one of the 
maybe deficiencies that we've had in the past is not 
necessarily looking at the full range of alternatives as part 
of the land use planning process. That we have limited the 
number of alternatives to just a few so that we can work 
through the land use planning process and reach conclusions or 
decisions that we can then move forward and implement.
    To address your issues to address the different ideas that 
are starting to surface regarding how these lands should be 
managed. It may behoove all of us to start looking outside of 
the box and looking at a full range of options that could be 
considered and should be considered as part of the land use 
process, our land use planning process. So the only thing that 
I would share with you today without the full range of 
knowledge of what has been done in the past or the quality of 
the plans that are currently in place is a commitment to you to 
work with the various constituencies out there, with your 
office and others to identify what are the true issues.
    Then to work toward resolution of those issues through the 
various management prescriptions that would come out of the 
land use planning process.
    Senator Wyden. Tell me if you have any thoughts about fresh 
approaches to streamline the process for these forest health 
projects. Let me tell you what I'm thinking about. Let's see 
your reactions along the lines of what we talked about as well 
in the office, you and Ms. Lewis.
    I think the American people expect to have the legal right 
to pursue through the court process a difference of opinion 
with respect to forestry policy. I mean, I don't think that 
should translate into a constitutional right for 5-year appeals 
to just go on and on and on. So what we're going to be trying 
to do is find a place in between.
    In doing so I think it's a pretty sure bet we're going to 
get beat up by both sides on that as well. Because there are 
people who will think that that is too much, that people will 
think it's not enough. But I think that is the kind of specific 
thinking that's going to be needed to streamline the process on 
some of these forest health projects.
    What's your reaction to that? Do you have any ideas of your 
own for streamlining the process?
    Mr. Abbey. You know, first, I guess my philosophy is that 
we should not be fearful of litigation. It is certainly 
problematic as far as holding up final decisions and therefore 
actions on these public lands. But my advice and counsel to the 
BLM employees that if confirmed I will be working with, would 
be to go forward taking the best available information. To make 
decisions, make good decisions, based upon that information 
without being fearful of who might sue the agency.
    I think, you know, what I have seen occur over the past 10 
years, if not longer, is this fear of being sued. Therefore 
people are reluctant to take any action at all. Therefore some 
of the decisions that could be made more timely are set aside 
and it takes us or it takes the agency a heck of a lot longer 
than maybe it should in order to issue those decisions.
    So again, the only fresh idea I could bring to the table 
and to present to you today is the fact is that we were hired 
to do a job. We have the ability to do the job. We need to do 
the job. Then we let the chips fall where they may.
    Senator Wyden. With respect to going forward. I plan to 
offer this legislation pretty soon. Can I have a pledge from 
you today to get back to us quickly and to work in a 
cooperative kind of fashion?
    Mr. Abbey. Senator, you have my pledge to work with you if 
I'm confirmed on all issues, but this is certainly an issue of 
importance. I would be happy to give you my personal time on 
this.
    Senator Wyden. Let me ask you a timber contract question as 
well. I noted the fact that we've just been clobbered in rural 
areas with the economic decline. Unemployment rate at 12.4 
percent. Construction market decline is devastated. Forest 
products.
    This is the case in a whole host of western States. You've 
got family owned sawmills and logging, you know, contracts 
being forced to make financial decisions that can result in 
bankruptcies, defaults on BLM, timber sale contracts. In effect 
they're no longer economically viable. People are just 
defaulting.
    So a number of weeks ago Senators Baucus and Tester and 
Merkley and I along with a number of House members from Oregon 
and Montana sent a letter to the Secretary requesting a 3-year 
contract extension for the BLM timber sale purchasers they can 
get through these kind of times until the economy gets better. 
There's precedent for this. This is a matter that our 
delegations from Oregon and Washington feel very strongly 
about.
    Now if it hasn't been resolved before your confirmation can 
we have your assurance today that you'll help Senator Baucus 
and I and the other members of the delegation get an answer 
before, in effect, we lose these sawmills and loggers?
    Mr. Abbey. Do you know the expiration dates of that, sir?
    Senator Wyden. We sent, in terms of the expiration dates--
--
    Mr. Abbey. Of the contracts?
    Senator Wyden. I will get all of that to you.
    Mr. Abbey. Ok.
    Senator Wyden. But, I mean, they are at really the point 
now if they don't get some relief, of going under. In other 
words the conditions are so serious that when we wrote that 
June 17 letter they conveyed to us they aren't going to make it 
unless they get a quick response. There is precedent for this.
    Unfortunately BLM timber sale purchasers, thus far, have 
been discussions in the past about relief. So they are looking 
at a whole host of defaults and 6 figure, you know, losses. I 
think a lot of the, you know, timber sales are scheduled to 
terminate later, you know, this year, early next year.
    But the point is they need an answer, quickly. That's why 
we asked for a fast response from the administration.
    Mr. Abbey. Senator, again, I've not seen that letter. But I 
assure you that if confirmed and if that decision has not 
already been made by the Secretary that I will work with him 
and many others within the Department to issue you a decision 
and to work with your office on that.
    Senator Wyden. Ok. One last one on forestry. Of course, Ms. 
Lewis, if you want to add anything on forestry as well, you're 
welcome to do that.
    Biomass. We have had a great deal of difficulty getting 
biomass treated as the extraordinary opportunity it presents 
for the West. It's an opportunity to create good paying jobs 
that take this wood waste and get it to the mills. It's 
merchantable, you know, timber.
    It's a clean source of energy. It will reduce the risk of 
fire. Certainly it's a plus in terms of climate change.
    We have been trying to, particularly get it treated as a 
priority for this administration. It's going to mean we're 
going to have to have some new policies in order to get it off 
Federal land. You'll have a chance right now to speak to 
Westerners about the importance of this issue, if you will, so 
state.
    Because this is what I get asked throughout rural Oregon, 
is are we going to be able to get through to the new 
administration about the priority to get biomass from Federal 
lands, to make this a priority. It makes sense for jobs. It 
makes sense for the environment. It makes sense for reducing 
the risk of fire.
    We're looking for some leadership that is going to push 
through the red tape and bureaucracy. Make it possible for us 
to get something that is of extraordinary benefit, I think, to 
the rural West, but also to the country.
    Mr. Abbey. Senator, I know oftentimes when we talk about 
renewable energy and the need to increase renewable energy that 
our statements fail to include biomass. I'm a proponent of 
using biomass as part of our renewable energy portfolio and as 
part of our national energy portfolio. I know the Forest 
Service has been supportive of increasing biomass as a source 
for renewable energy and the States of Washington as well as 
Oregon.
    I have read statements recently that were given by either 
the regional forester or the Forest Service Supervisor in one 
of the forests there in Oregon supporting such a concept. What 
I would offer to you today, if confirmed, that I would be happy 
to work with your office to ensure that the Bureau of Land 
Management's renewable energy program consists of a component 
of biomass as part of a viable source for renewable energy.
    Senator Wyden. I just hope that this will be approached 
with a real sense of urgency because it has not been in the 
past. Westerners have been trying to get the attention of the 
past administration, you know, on this. We've had a lot of 
difficulty, particularly in terms of getting access to biomass 
that comes from Federal lands.
    I would just ask that you not miss this kind of opportunity 
for a bold change in Federal forestry policy. It's going to pay 
off the economy. It's going to pay off for the environment. I 
can just assure you there will not be an appearance you make 
before this committee that I won't be asking you about biomass.
    Mr. Abbey. I appreciate that advice and warning. Senator, I 
would just add one thing. The Bureau of Land Management does 
have sufficient tools to move forward and make available 
biomass under the stewardship contracting program.
    If it's not being used than I will find out why it's not 
being used. But there are existing authorities and tools 
available to the agency to make such a source of renewable 
energy accessible to the public.
    Senator Wyden. If you were standing up in front of a town 
hall meeting in rural Oregon and you said that. They'd say 
better go out and use them quick because we're not seeing much 
of it out our way. We will talk further about it.
    Let me ask a few questions for you, Mr. Newell. The EIA has 
long said that the skyrocketing energy prices could be 
explained by market fundamentals. Now in the past year the 
country has seen the price of oil go to $145 a barrel with no 
significant increase in demand, no major supply disruption and 
inventories at or above the normal levels.
    Then when the markets crashed last fall, the price of oil 
dropped to a low of $34 a barrel. Now in the middle of a very 
painful set of economic times the price has started back up, 
the physical inventories, oil that literally sits in the 
storage tanks is at a record high. So you look at this and the 
wild price swings and the inventory levels. Pretty hard to say 
that this is just something explained by garden variety market 
conditions.
    So a number of experts, the new chairman of the CFTC says 
that speculative investors are at least partly to blame for the 
high prices and this increased market volatility. If you're 
confirmed is there going to be a chance to get the agency's 
head out from under the barrel and take a new look at the role 
of energy speculators and commodity markets and the role they 
play in energy prices?
    Mr. Newell. Yes, Senator. I think as you've described 
there's a very wide variety of factors that are impinging on 
oil and related energy markets over the last year or so. It's 
certainly not a simple set of dynamics that's unfolded. I would 
definitely agree with that.
    There's both--one issue is in terms of what some people 
would classify as fundamentals verses, you know, the wide 
variety of factors. There's clearly issues of uncertainty over 
what consumers' response will be to prices. There's uncertainty 
about what the near term availability of supply is.
    There's uncertainty about the risk of global oil 
disruptions around the world. There's changes in related 
commodity market prices. There's the broader financial market 
which has gone through some very dramatic swings over the last 
year which itself showed significant excesses which have been 
working their way out. There's the broader economy both in the 
United States and abroad which has gone through dramatic swings 
over the last year which we weren't even a year ago, seeing 
what that would be.
    So all of these factors in addition to the forward looking 
nature of this because oil is a storable commodity, you can 
store it in tanks and you can store it in the ground by never 
taking it out of the ground. So there's a forward looking 
element to this. I think there is again, there's uncertainty 
about how fast the United States economy is going to come out 
of the current economic downturn as well as how fast, fast 
growing Asian economies are going to come out of it.
    So all these dynamics are entering into the oil markets. 
You know, CFTC, the Commodity Futures Trading Commission, has 
an important regulatory role to play in this in terms of 
determining and ensuring that there is both market transparency 
and that there's market efficiency there. EIA, which if 
confirmed I would see that our important role which is 
providing the best analysis and information in order to provide 
the, you know, the best information for to inform these market 
prices. I would ensure that we do that.
    Senator Wyden. That wasn't the question, Mr. Newell. The 
question is are you going to take a different approach than 
your predecessors? That's really a yes or a no question.
    Mr. Newell. Yes.
    Senator Wyden. Are you going to look at speculators?
    Mr. Newell. Yes. I think that the key way in which we would 
take a different approach and which I think that EIA could do a 
better job on is explaining more thoroughly what are the many 
factors that are leading to these very significant energy price 
changes. I think a much better job can be done on that.
    Senator Wyden. Are you going to look at speculators?
    Mr. Newell. Certainly EIA, if one wants to understand 
what's driving these energy prices, one needs to look at a lot 
of different factors. Speculators is one of them. I mean----
    Senator Wyden. I couldn't really get your predecessors to 
look at speculators. What I want to know because I think this 
is an administration with huge opportunities in the energy 
field whether they're going to take a different approach. I 
believe you said, yes which I liked.
    Now I hope that you'll say that that yes, by way of a 
different approach will incorporate a look at speculators. Is 
there a yes to that one too?
    Mr. Newell. There's absolutely a yes in that one.
    Senator Wyden. Very good. Let's quit while we're ahead.
    [Laughter.]
    Senator Wyden. Ms. Lewis, Mr. Newell, Mr. Abbey, we can 
give you the last word. Would any of you three like to add 
anything? Ms. Lewis?
    Any? Any? You're not required to, this is just I always 
like when witnesses come to give them the last word.
    Ms. Lewis. Thank you, Senator.
    I would just say that if I'm confirmed I would look forward 
to working with you and your staff and the rest of the 
committee on a variety of issues. There are lots of tough 
issues that we'll be facing. But I look forward to the 
challenge. I would look forward to the challenge, if confirmed 
to tackling those tough issues and exercising the best judgment 
that I can on those various issues.
    Senator Wyden. Very good. Anything by way of wrap up from 
you, Mr. Newell, Mr. Abbey?
    Mr. Newell. I'll just quickly say thank you very much for 
this opportunity. I appreciate all the questions. I look 
forward, if confirmed, to increasing EIA's both information 
base and analytic capacity on the wide range of issues that 
have been brought up today.
    Mr. Abbey. The only thing I would add, Senator is that 
these Bureau of Land Management managed public lands are 
national assets. It would be a privilege to serve our country 
as the BLM Director.
    Senator Wyden. A good note to end on. Thank you all for 
your willingness to serve. With that the committee is 
adjourned.
    [Whereupon, at 3:55 p.m. the hearing was adjourned.]

    [The following statement was received for the record.]

                  The United States Virgin Islands,
                  Office of the Governor, Government House,
                             Charlotte Amalie, V.I., July 27, 2009.
Hon. Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski, I am writing 
to give my strongest support for the nomination of Wilma A. Lewis to 
the position of Assistant Secretary of the Interior for Land and 
Minerals Management.
    Ms. Lewis is an outstanding individual who has devoted much of her 
professional legal career to leadership positions in public service. A 
noted lawyer from a distinguished Virgin Islands family, Ms. Lewis was 
valedictorian of her high school class on St. Thomas, a Phi Beta Kappa 
graduate of Swarthmore College, and received her Juris Doctor degree 
from Harvard Law School. Her professional career includes outstanding 
service as Solicitor General in the U.S. Department of the Interior, 
United States Attorney for the District of Columbia, and partner in a 
distinguished law firm in the nation's capital. She has also served as 
adjunct professor at the George Washington University National Law 
Center. Ms. Lewis exemplifies the accomplishments that we hold up to 
our young people as indicative of what a good education, a consistent 
work ethic and contribution in public service can make possible.
    Indeed, through her professional service in the public and private 
sectors, Ms. Lewis has demonstrated the experience, dedication and 
leadership necessary for success as Assistant Secretary of the 
Interior.
    I have personally known Ms. Lewis for many years. She has the 
highest standards of ethics and moral character, and she has my 
unqualified endorsement for this import position in the service of our 
country.
            Very truly yours,
                                     John P. de Jongh, Jr.,
                                                          Governor.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    Responses of Robert V. Abbey to Questions From Senator Murkowski
                               experience
    Question 1. You spent a long time as Nevada State director of the 
Bureau of Land Management. I would like you to tell us the three things 
that you did to address each of the issues listed below; what worked 
and what didn't work; and which of the lessons that you learned from 
those experiences you will use to improve BLM land management 
nationwide if confirmed:
a. wildland fire
    Answer. Prior to the 1999 fire season in Nevada, the BLM had placed 
primary emphasis on fire suppression strategies and implementation. 
Equipment purchase, employee recruitment and training, and crew 
deployment to wildfires were actions routinely managed by the BLM. This 
all changed after the 1999 fire season when almost 1.7 million acres of 
land in the Great Basin burned in less than two weeks. A series of 
lightning storms, most of them with little or no moisture, ignited 
hundreds of rangeland and forest fires in Nevada. Suppressing the fires 
was one challenge. The other, and more formidable problem, was 
preventing much of the burned land from being overwhelmed by annual 
grasses and noxious weeds.
    Before the fires were controlled, I requested that a team of 
resource specialists be assembled to review the consequences of the 
large number of fires and to provide me and others with recommendations 
relating to the rehabilitation of burned areas as well as the actions 
that might be needed to reduce the severity of future wildfires in 
Nevada. This meeting of resource specialists in Boise was the beginning 
of the Great Basin Restoration Initiative (GBRI). The GBRI recognizes 
that traditional means of fighting invasive species and restoring 
native habitat are not enough to reverse the downward spiral of 
ecological health in the Great Basin. In addition; we found that close 
coordination with key individuals, local government and agencies, and 
organizations is vital to successful restoration. The GBRI is intended 
to restore some areas of high resource values, reduce impacts to other 
areas from annual grasses and noxious weed invasion, and reverse the 
destructive cycle of wildfire and weeds.
    In both 1999 and 2000, I worked with the Governor of Nevada to plan 
for and implement statewide fire conferences to discuss among many 
topics, the role of individuals in helping to reduce the threat of 
wildfire on private property. This discussion led to the creation of 
Nevada fire safe councils which are now operating throughout the State. 
These councils are made up of volunteers from homeowner associations 
and other nonprofit groups who help communicate and demonstrate best 
management practices for homeowners residing in rural-urban interface 
areas.
    Reducing the impact of wildfire on public land was a high priority 
of mine as the BLM's Nevada State Director and many of the initiatives 
we introduced in Nevada were adopted for western wide implementation. 
While taking pride in this fact, I take greater pride in the emphasis 
we consistently applied to firefighter safety, a program area where I 
will continue to place high priority, if confirmed as the BLM Director.
b. ATVs and ORVs
    Answer. The burgeoning use of off-road vehicles on public lands is 
one of the greatest challenges facing land managers today. Such use is 
increasing at a rapid rate and all land management agencies are 
witnessing impacts to important wildlife habitat, riparian areas, and 
cultural sites. These impacts are often times cited by certain interest 
groups in petitioning the Fish and Wildlife Service for the listing of 
specific plant and animal species as endangered.
    To address this challenge, I routinely met with organized off-
highway vehicle (OHV) groups to solicit their input and assistance when 
I was the BLM's Nevada State Director. I understand the importance of 
routine communications with public land stakeholders and the need for 
partnerships when managing this use. Officers from national and 
regional OHV groups were invited to speak with BLM line management 
personnel in Nevada at a special leadership team meeting I convened so 
we could formulate a joint strategy for OHV management on public land 
in Nevada. Since the BLM averages one recreation planner and one law 
enforcement ranger for each million acres managed, I knew it was almost 
impossible for the BLM to be effective in managing for this activity 
without ``buy-in'' from recreationists.
    As State Director, offices in Nevada were completing travel 
management plans as an integral component of each land use plan. 
Attention was given to providing appropriate protection to areas with 
sensitive natural and cultural resources while allowing for continued 
opportunities for OHV use on the public land. I worked with members of 
the Nevada Congressional delegation to include language in the Lincoln 
County Lands Act that designated an official OHV trail in that county 
and which also designated funds from land sale revenues for the 
planning and management of that trail.
    As the BLM's Nevada State Director, it was my practice to work with 
OHV user groups and to encourage responsible behavior. If confirmed as 
the BLM Director, I would continue to be an advocate for increasing the 
public's awareness about the impacts and consequences of irresponsible 
use on public land. I know the BLM will never have sufficient funds to 
rehabilitate for impacts which could be easily avoided in the first 
place. The agency must complete travel management plans as quickly as 
possible as part of its public planning process. Once completed and 
decisions are made, the BLM must work in partnership with local and 
State governmental entities to implement actions consistent with these 
plans, including enforcement to ensure compliance with management 
decisions.
    While concerned about increasing OHV use on public lands and the 
damage caused by some individuals, I am cognizant of the need to 
provide for appropriate and adequate motorized access on public lands 
so that people can continue to travel the back country as part of their 
recreation experience.
c. wild horses and burros
    Answer. Nevada is home to the largest wild horse population in the 
United States. When I became the BLM State Director in Nevada, 
populations exceeded 22,000 and nearly half of the appropriate 
management levels had not been established. Working with diverse 
interests in the State and with support from the BLM's Washington 
Office, we established appropriate management levels on all but one 
herd management area in Nevada. Before I retired in 2005, we had 
reduced populations to about 14,700 animals, nearly achieving Nevada's 
appropriate management levels at the time of about 14,000.
    As State Director, I worked with the State of Nevada Commission on 
Wild Horses and with volunteer groups to increase the number of 
adoptions for wild horses that were being removed from public lands. I 
entered into a cooperative agreement with the State of Nevada Prison 
System that used prisoners to gentle and train mustangs which increased 
the horses' chance of being adopted. The BLM hosted adoptions in 
communities, bringing wild horses closer to the people who had an 
interest in providing homes for these horses. Prior to my arrival as 
State Director in Nevada, the BLM rarely, if ever, scheduled adoptions 
within that State. While state director and at my suggestion, we used a 
national cable television station to broadcast adoptions for wild 
horses being held in a federal holding facility outside of Reno, 
Nevada. Under this program, people from anywhere in the United States, 
deemed qualified, could adopt wild horses from videos shown on the 
network. Exposure on national television helped increase people's 
understanding of the plight of wild horses and provided a convenient 
way to adopt a living legend. Finally, as State Director, I supported 
the passage of State legislation that created a State wild horse 
foundation intended to help find good homes for wild horses in Nevada. 
Once the foundation was established locally, I led the effort to expand 
the scope of the foundation to provide national assistance.
    During my 25-year career with the Bureau of Land Management, I 
gained a great deal of experience from working in this program. There 
are no easy answers given the likelihood that numbers of horses and 
burros on the range will continue to exceed the ability of the range to 
support them. If confirmed as Director of the BLM, I would work to take 
aggressive steps to reduce the percent of annual population growth 
within the wild horse herds. This is a critical first step as we 
attempt to bring the populations in line with the ability to find good 
homes for the excess horses and burros that are removed from public 
lands.
    If confirmed, I would work with others to identify alternatives for 
addressing the large number of horses now being held in long-term 
holding facilities at significant costs to the taxpayer. While willing 
to review all options, it is possible this review could find that long-
term holding facilities are still needed. If true, I will work with 
members of Congress to find ways to improve efficiencies within the 
program to offset the costs of holding wild horses over the long term.
d. grazing
    Answer. As the BLM's Nevada State director, I had an excellent 
working relationship with the State's livestock industry. This 
relationship withstood actions that I took to bring individuals into 
full compliance with laws and policies governing livestock grazing on 
public lands. My nomination for the BLM Director position has been 
endorsed by the livestock industry in many of the western States.
    As State Director, I made difficult decisions regarding enforcement 
actions against ranchers who were operating on public lands without 
authorization. Impoundments were used to remove livestock from public 
lands but only after BLM officials communicated with those operating 
illegally and after giving these individuals the opportunity to remove 
their livestock first. I worked closely with the U.S. Attorney's office 
in Nevada to ensure coordinated approaches for our enforcement action. 
While controversial at times, we brought consistency to the grazing 
program in Nevada and earned the respect of many of the ranchers who 
were fully complying with all BLM grazing policies.
    As State Director, I ensured that grazing interests were 
represented on each of the three Resource Advisory Councils we had in 
Nevada. I participated at annual livestock conferences and attended 
numerous other meetings with grazing interests. The BLM worked 
cooperatively with permittees to prepare grazing plans in Nevada and we 
encouraged permittee's participation in the joint monitoring of 
rangeland conditions.
    If confirmed, I would work to maintain and improve working 
relationships with public land stakeholders, including the BLM's 
grazing permittees. I know that most ranchers are good stewards of 
public land and many of the range improvements they construct on public 
land also benefit wildlife and wild horses in the same area. I know 
that ranchers often times serve as first responders to accidents on 
public land and they provide assistance to recreationists who get lost 
or whose vehicles break down.
    As State Director, we developed and implemented a Wildfire Support 
Group, consisting of ranchers living in remote locations who we trained 
as initial attack crew members for wildland fire. In some cases, this 
group helped keep wild fires from spreading until BLM fire crews could 
respond. If confirmed as the BLM director, I will explore the 
possibility and feasibility of expanding this program to other areas in 
the west based on experiences the BLM has gained in Nevada.
e. mining
    Answer. As the BLM's Nevada State Director, I had the 
responsibility for providing direct oversight of the largest mining 
program administered by the BLM. Nevada's gold production by itself 
makes it the fourth largest producer of gold in the world. The BLM's 
Nevada State office records almost half, if not more, of all the mining 
claims filed on public lands in the United States. While these are 
impressive statistics, I note that Nevada also leads the west in 
abandoned mine lands requiring remediation. Through partnerships with 
the State of Nevada, the Nevada Mining Association, and with a number 
of citizen volunteers, progress was made during my tenure in mitigating 
risks associated with many of these mine sites.
    During my time as the BLM Nevada State Director, we witnessed an 
increased number of mining proposals on public land requiring 
environmental analysis and consultation with Native Americans. We 
worked closely with tribal representatives, EPA, and the State of 
Nevada on all permitting activities, including the requirement for 
adequate reclamation bonding and mitigation. Many of our decisions 
relating to these proposals were appealed or litigated. Since our BLM 
offices had worked diligently to incorporate best management practices 
and mitigation in all mining decisions, few, if any, of these decisions 
were overturned.
    I am a firm proponent for the BLM's multiple use mandate and I 
believe that appropriate public land, but not all public lands, should 
continue to be accessible for mineral extraction.
f. geothermal
    Answer. During my tenure as the BLM State Director in Nevada, our 
office led the BLM in issuing the largest number of geothermal leases 
in the west. Our success was based on our knowledge of the importance 
of the available resource and the likely role geothermal might play in 
diversifying our energy portfolio. We developed a close working 
relationship with industry as we attempted to better understand their 
technology and resource needs. We worked closely with state officials 
to create efficiencies in the permitting processes as we attempted to 
avoid duplication and expense. Under my leadership, the BLM in Nevada 
moved aggressively in offering suitable parcels for geothermal leases 
and in reviewing applications for new rights of way for proposed new 
transmission lines to support potential geothermal production. Once 
parcels were leased, we gave high priority to reviewing applications 
for permits to drill that we received from the lessee. If confirmed as 
the BLM director, I would work with all BLM offices to expedite the 
leasing and permitting activities, consistent with land use planning 
decisions.
g. renewable energy including solar and wind
    Answer. I served as the BLM Nevada state director from 1997 through 
2005. During this time, there were few renewable energy proposals on 
public land in Nevada. The exception was geothermal where we had an 
active leasing program. We did have some interest from industry to 
perform testing on public lands for possible wind projects. We reviewed 
each of these proposals and we issued decisions based on the merit of 
the proposed action and consistency with land use planning.
    BLM has the legal authorities required to meet most of the public's 
demands and expectations for increasing the use of renewable energy as 
we protect the environment and reduce our nation's dependency on 
foreign oil. I cannot think of a better gift to the American people or 
to future generations than meeting these goals. If confirmed, I pledge 
to work cooperatively with all parties in an effort to address the 
current backlog in processing applications for renewable energy 
proposals and related transmission corridors. I also pledge that we 
will use the best available information in an attempt to reduce 
potential conflicts and protect sensitive natural and cultural 
resources.
                   establishment of wilderness areas
    Question 2. In 1997 you testified at an oversight field hearing on 
BLM and US Forest Service oil and gas regulations regarding access and 
permitting issues in Colorado. In response to a question from Rep. 
Barbara Cubin, you stated the following:

          Mr. ABBEY. ``The CEC's recommendation is basically--and how 
        we're managing those is based upon guidance that was issued in 
        1994 by Assistant Secretary Bob Armstrong, which basically told 
        BLM offices to pay careful and particular attention to 
        development proposal that could limit Congress's ability to 
        designate certain BLM areas as wilderness, even though these 
        areas are not designated formally as wilderness study areas. So 
        you're absolutely correct. That is not addressed by law. That 
        is their own policy. Our inventory which we are conducting 
        right now provides for a second look to ensure that the 
        information regarding the presence or absence of wilderness 
        characteristics in Colorado is entirely current and accurate. 
        The inventory also will serve the public interest because the 
        results are going to be made public, and if any land management 
        recommendations or decisions are made in the future regarding 
        changing the way we're managing those CEC-proposed areas, then 
        such actions will be subject to full public participation, in 
        following the language of the planning process that we have in 
        place. So that is, in fact, an internal policy.''

    On May 20th of this year, Secretary Salazar sent to Senator Bennett 
of Utah a letter related to questions that Senator Bennett had asked 
about Wilderness Study Areas, the establishment of new Wilderness Study 
Areas, and the embargo on the BLM's ability to establish new Wilderness 
Study areas since October 21, 1993. The following is one of the 
questions and answers included Secretary Salazar's letter to Senator 
Bennett:

          Do you agree that the Department's authority to establish new 
        Wilderness Study Areas under Section 603 of the FLPMA expired 
        no later than October 21, 1993?
          Answer. Yes. Section 603 of FLPMA required the Secretary to 
        conduct a review of roadless areas of public lands of at least 
        five thousand acres and report his recommendations about the 
        suitability or unsuitability of each area for preservation as 
        wilderness to the President, who in turn was to make 
        recommendations to Congress. Areas deemed suitable for 
        preservation as wilderness through the process are called 
        Wilderness Study Areas (WSAs). Section 603 specified that the 
        Secretary's review and recommendation were to occur within 
        fifteen years of FLPMA's enactment in 1976. The President then 
        had two years to advise Congress of his recommendations for 
        areas to be designated as wilderness. This means that all of 
        the requirements of Section 603 were to be completed seventeen 
        years after FLPMA's enactment, or by October 21, 1993, at which 
        time the authority expired.

    Do you agree with Secretary Salazar's answers to Senator Bennett's 
question?
    If Yes--
    a. In 1997 you testified that the BLM and CEQ had an internal 
policy that was in direct conflict with the May 20th letter from 
Secretary Salazar's letter to Senator Bennett. Which controls your 
policy now, Mr. Abbey, your testimony in 1997 or Secretary Salazar's 
letter to Senator Bennett in May 2009?
    Answer. I have read Secretary Salazar's response to Senator Bennett 
and I agree with the Secretary's statement.
    I am not entirely sure that my testimony in 1997 is in direct 
conflict with Secretary Salazar's letter to Senator Bennett. It has 
been a long time since I reviewed the materials associated with that 
hearing. I agree with Secretary Salazar that the Department's authority 
to establish new Wilderness Study Areas under Section 603 of FLPMA 
expired no later than October 21, 1993.
    b. If confirmed, are you willing to commit to carry out the 
directorship of the BLM in strict adherence of Secretary Salazar's 
answers to Senator Bennett in his May 20th letter to the Senator.
    Answer. If confirmed I would follow the Secretary's policy on this 
matter.
                                  peer
    Question 3. On the Public Employees for Environmental 
Responsibility (PEER) website you are listed under ``Rangers for 
Responsible Recreation''. Further you are quoted as saying: ``The 
irresponsible use of off-road vehicles on our public lands is one of 
the greatest challenges facing land mangers today. There appears to be 
a total disregard by many off-roaders of the impacts from their 
actions. The public land mangers have no other option than to close 
more of these lands to off-road vehicle use unless off-roaders begin 
exercising responsibility and better judgment.''
    a. What is your current and past relationship with PEER? Have you 
ever served on its board or been an officer at either the local, State, 
or national office of this organization?
    Answer. I have no direct relationship with PEER nor have I ever 
served on its board or as an officer at the local, state, or national 
office of this organization.
    In late 2005 or early 2006, I did agree to lend my name and to 
contribute a statement as part of an organization calling itself 
``Rangers for Responsible Recreation.'' When I agreed to this request I 
was not aware that this new organization, made up of former land 
management personnel, was being financed by PEER. If I had known this 
fact, I still would have supported the Rangers' efforts to share common 
concerns with the public about the increasing impacts from 
irresponsible users on the public land. I believe it is important to 
communicate accurate and relevant information with public land 
stakeholders. We are experiencing problems on public lands at both the 
State and Federal levels from irresponsible use of off-highway 
vehicles. If such behavior continues, there will be management 
consequences and there will likely be an increasing amount of public 
land closed to off-highway vehicles as a result of administrative 
actions or court orders.
    b. If confirmed will you agree to recuse yourself from any meetings 
with PEER or AFSEE or other sister group of PEER?
    Answer. I do not see a need to recuse myself from any meetings with 
PEER, AFSEE, or other sister groups of PEER. However, I will be happy 
to consult with ethics officers in the Department of the Interior and I 
will follow their recommendations pertaining to this matter.
               limitations to federal court jurisdiction
    Question 4. In 2003 during a House Subcommittee on Energy and 
Mineral Resources you had an exchange with Representative Chris Cannon 
concerning appeals and litigation and the exemption for NEPA--appeals 
and litigation that Senator Daschle got inserted in an Omnibus 
Emergency Supplemental bill in 2002. At that time you indicated that 
you were aware of Senator Daschle's language and in fact gave the 
following answer to a question from Representative Cannon:

          Mr. Cannon. ``You're aware that Senator Daschle asserted in, 
        I guess it was last year's Omnibus Bill a few years ago, a 
        limitation on Federal court jurisdiction over appeals of 
        decisions made in the Black Hills Forest? Are you familiar with 
        that?
          Mr. Abbey. ``Yes sir.''
          Mr. Cannon. ``Is that something we need to do more broadly in 
        America?"
          Mr. Abbey. ``I would certainly support--and I'm speaking for 
        myself--I could certainly support such an action by Congress.''

    If confirmed, would you still support such an action by Congress? 
If so, why? If not, why not?
    Answer. I am aware that the BLM frequently faces litigation 
challenges to its land and resource management decisions. I am also 
aware that each branch of our government serves its respective purpose. 
As I testified at the confirmation hearing, if confirmed, I would 
encourage the BLM employees and managers to make decisions based on the 
best science and on their professional experience and expertise. I 
would strongly encourage them to not let fear of potential litigation 
sway their decisions on difficult resource management issues. If 
confirmed, I would reinforce the message to BLM employees and managers 
that their application of the land use planning process, with its 
formal role for public input, is the most effective way for the BLM to 
ensure the decisions reached are defensible should litigation ensue.
                   land designations and water rights
    Question 5. On July 30, 2002, you testified to this committee on S. 
2612, the Clark County Conservation and Public Land and Natural 
Resources Act of 2002, and in response to a question from Senator Ron 
Wyden said the following:

          Senator Wyden: ``Mr. Abbey on S. 2612, let's go first to the 
        question of water rights. Previous laws designating wilderness 
        areas in Nevada have either expressly reserved the water right, 
        or in the case of Black Rock Desert Wilderness enacted last 
        Congress, were essentially silent on the issue. Why is it 
        appropriate to ignore the wishes of the Nevada delegation on 
        this and create yet another standard?
          Mr. Abbey: ``Well, Senator Wyden, it is the position of the 
        Department that we believe that this legislation should not 
        construe or be construed to constitute either an expressed or 
        implied reservation of any water rights. And again we would, 
        you know, we would be the advocate for that position being 
        accepted by the members of this committee.''

    If confirmed, will you continue to support the position you 
articulated to Senator Wyden in 2002?
    Answer. In general, I continue to support the position I took on S. 
2612 in my response to Senator Wyden's question in 2002. However, I am 
also aware that individual wilderness bills treat the question of water 
rights in unique ways. If confirmed, my position on individual pieces 
of legislation would reflect the specific circumstances involving each 
bill.
                        wilderness designations
    Question 6. At that same hearing, in response to the following 
question from Senator Wyden, you gave the following response:

          Senator Wyden. ``Now with respect to wilderness issues, here 
        we are talking about release language, and the release language 
        in S. 2612 differs from that used in previous BLM wilderness 
        bills. You recommend incorporating manage language that is 
        ``widely understood and accepted.'' Do you all have any 
        concerns with the standard wilderness study area release 
        language?"
          Mr. Abbey. ``We would not.''

    If confirmed will you continue to support the standard wilderness 
study area release language discussed in the 2002 hearing?
    Answer. Only Congress has the express authority to designate 
wilderness, and to release land indentified under FLPMA Section 603 as 
Wilderness Study Areas. If confirmed, I pledge to work with Congress to 
resolve wilderness and other land management issues throughout the 
West.
    Question 7. At that same hearing, you also testified:

          ``Title II (of S. 2612) moves the wilderness debate forward 
        in Clark County, Nevada by designating lands as wilderness and 
        releasing other lands from wilderness study area. Senator Reid 
        and Ensign have worked diligently with their local 
        constituencies to see consensus on these designations and 
        release. We hope that this approach can be a model and provide 
        an impetus for other State and regions to take similar 
        actions.''

    a. Do you stand by that testimony?
    Answer. Yes. I continue to support efforts by Congress to resolve 
wilderness issues throughout the West. The Clark County Conservation of 
Public Land and Natural Resources Act of 2002, Public Law 107-282, is 
an excellent example of what can be achieved by Congress working with 
local and national constituencies.
    b. If confirmed will you continue to encourage these kinds of 
wilderness deals?
    Answer. I know that proposals for wilderness designation and the 
disposition of Section 603 Wilderness Study Areas rest with Congress. 
If confirmed, I would stand ready to provide support to Congress as 
proposals are developed.
    c. If so, will you commit to directing your BLM employees to 
support similar proposals in the future?
    Answer. If confirmed, my staff and I would work cooperatively with 
Congress to resolve wilderness issues throughout the West. Each 
proposal is unique, and my staff and I would give each one careful 
review and consideration.
                         wild horses and burros
    Question 8. On July 13, 1998 at a House Resources Committee Hearing 
in Reno, Nevada related to the management of the Wild Horses and Burro 
Act, in response to questions by then-Representative Ensign you 
testified:

          ``In 1971 it was estimated that between 10,000 and 17,000 
        wild horses and burros roamed the west. Today there are 
        approximately 43,000 wild horses and burros on the public land 
        including an estimated 22,000 in Nevada.'' You went on to say: 
        ``based upon our estimates we are projecting that the 
        populations in Nevada are increasing approximately 24 percent 
        per year.''

    Further, responding to a question by then-Representative Ensign, 
you said that:

          ``And therefore, unless there are continuing efforts to 
        reduce the populations of the horses and bring the numbers down 
        to appropriate management levels, I think you would see some 
        suffering on the part of animals themselves and certainly 
        degradation to the natural resources.''

    a. How many wild horses and burros does the BLM estimate are on the 
lands it is been charged to manage?
    Answer. I am advised that as of February 2009, the BLM estimates 
that there are approximately 36,900 wild horses and burros on the 
public lands.
    b. How many are there on BLM lands in Nevada?
    Answer. I am advised that as of February 2009, the BLM estimates 
that there are approximately 17,500 wild horses and burros on public 
lands in Nevada.
    c. If the numbers are not reduced down to realistic numbers, what 
are the consequences to the range and other animals that utilize those 
lands?
    Answer. I understand that continued and increasing numbers of wild 
horses and burros beyond the capacity of the land to sustain them would 
result in ecological impairment including overpopulation of herds; 
overgrazing of forage; damage to native vegetation and riparian areas; 
damage to wildlife habitat; increased soil erosion; replacement of 
native species by invasive species; and lower water quality. If 
confirmed, I am committed to working with the Congress and stakeholders 
to develop a practical, effective, and affordable strategy for managing 
herd populations, both on the range and off-range.
                         administrative actions
    Question 9. In an October 27, 2003 House Subcommittee Hearing on 
Forest and Forest Health in Ely, Nevada, you submitted written 
testimony that included the following section:

          2002, the Secretaries of Interior and Agriculture have taken 
        several administrative actions to implement components of HFI, 
        which include the following:

  <bullet> Endangered Species Act Guidance--On December 11, 2002, the 
        Fish and Wildlife Service (FWS) and National Oceanic and 
        Atmospheric Administration Fisheries (NOAA Fisheries) issued 
        joint guidance that allows multiple projects to be grouped into 
        one consultation and provides direction on how to consider and 
        balance potential short-and long-term beneficial and adverse 
        impacts to endangered species when evaluating projects. The 
        goal is to recognize that project specific, short-term adverse 
        impacts on species need to be weighed against the longer-term 
        watershed level benefits to those and other species that such 
        projects will achieve.
  <bullet> CEQ Memorandum & Model Environmental Assessment Projects--
        CEQ Chairman Connaughton issued guidance addressing the 
        preparation of model environmental assessments (Model EA) for 
        fuels treatment projects that improve administrative processes. 
        These guidelines are now being applied on both Forest Service 
        (FS) and Department of the Interior (DOI) agency model fuels-
        treatment projects. The Mesquite Hazardous Fuels Project, 
        approved this past August after a public review period, is an 
        on-going Model EA Project that addresses tamarisk-infested 
        stretches of the Virgin River in southern Nevada near the towns 
        of Mesquite and Bunkerville. Under current conditions, 
        tamarisk, a highly flammable non-native species, is 
        establishing its dominance in burned areas and posing an 
        increased risk of wildfire. The BLM was able to initiate this 
        project this past September by removing five acres of tamarisk. 
        Through a combination of mechanical thinning, hand removal, and 
        revegetation, an additional 300 acres of tamarisk removal is 
        targeted for completion next year, with a total planned 
        treatment of 1,700 acres.
  <bullet> Appeals Process Reform--Both the United States Department of 
        Agriculture (USDA) and DOI made rule changes designed to 
        encourage early and meaningful public participation in project 
        planning, while continuing to provide the public an opportunity 
        to seek review or to appeal project decisions. This enables 
        issues to be resolved earlier in the project planning process, 
        allowing for a more expedited application of hazardous fuels 
        reduction projects.
  <bullet> Categorical Exclusions (CE)--Both USDA and DOI have 
        established new categorical exclusions, as provided under the 
        National Environmental Policy Act, for certain hazardous fuel 
        reduction projects and for post-fire rehabilitation projects. 
        These new CEs shorten the time between identification of 
        hazardous fuels treatment and restoration projects and their 
        actual implementation on the ground.
  <bullet> Proposed Section 7 Counterpart Regulation--FWS and NOAA 
        Fisheries have proposed Section 7 join counterpart regulations 
        under the ESA to improve Section 7 consultation procedures for 
        projects that support the National Fire Plan. The proposed 
        regulations would provide, in some situations, an alternative 
        to the existing Section 7 consultation process by authorizing 
        the agencies to make certain determinations without project-
        specific consultation and concurrence of the FWS and NOAA 
        Fisheries.

    a. If confirmed will you continue to advocate for each of the 
administrative actions you lauded at the 2003 hearing? If not, why not?
    Answer. While I am not familiar with the current status of many of 
the issues on which I testified six years ago, if confirmed I would 
continue to support actions that expedite project planning while 
providing a more complete understanding of short and long-term impacts 
to species of concern. I would support a process that encourages 
meaningful public participation in project planning and provides the 
public with an opportunity to participate in the review of project 
decisions.
    Question 9b. What other actions should Congress undertake to 
expedite implementation of the Healthy Forest Restoration Act?
    Answer. If confirmed, I would support expanding efforts to address 
landscape-scale restoration needs outside the wildland urban interface 
areas to benefit multiple resources. I understand that the five-year 
review of HFRA was recently completed and, if confirmed, I would look 
forward to the recommendations in the forthcoming report to Congress.
    Question 9c. What other steps can the current Administration take 
to expedite implementation of the Healthy Forest Restoration Act?
    Answer. If confirmed, I would continue to support the integration 
of authorities and programs to meet hazardous fuels reduction as well 
as forest and woodland restoration goals. I would also continue to 
support a collaborative process and stewardship contracting on BLM 
lands. Additionally, I would work with appropriate agencies to expand 
efforts to address cross-jurisdictional landscape-scale restoration 
needs. Finally, if confirmed, I would also support post-treatment 
monitoring as a tool to improve the effectiveness of implementation 
actions.
    Question 9d. Since the legislation was signed into law how many 
acres of forest land have been treated through the Healthy Forest 
Restoration Act authority? (Just provide data for the Healthy Forest 
Restoration Act authority, please.)
    Answer. I am informed that through the end of fiscal year 2008, 
approximately 487,000 acres of federal lands were treated through the 
HFRA authority.
    Question 9e. How many acres has the BLM treated through that 
authority? (Just the Healthy Forest Restoration Act authority, please.)
    Answer. I am informed that through the end of fiscal year 2008, 
approximately 48,000 acres of BLM lands were treated through the HFRA 
authority.
                  southern nevada land management act
    Question 10. In response to questions at a House Subcommittee 
Hearing on National Parks, Recreation and Public lands on December 3, 
2003 in Las Vegas, Nevada, you testified that the Southern Nevada Land 
Management Act:

          `` . . . generated more than $690 million by selling a little 
        more than 5,600 acres of public land at 15 public actions.'' 
        and that, ``The BLM is offering for sale 13,500 acres under the 
        Lincoln County Lands Act for 2000. Over the next several years, 
        we also plan to offer for sale approximately 21,000 acres of 
        land in 13 Nevada counties outside of Clark County.''

    a. That was in 2003. How many acres and for how much money did the 
BLM sell in Nevada since you testified at that hearing?
    Answer. I have been provided information that, from 2004 through 
2008, the BLM in Nevada sold 24,684 acres for approximately $2.4 
billion.
    b. During that same hearing [December 3, 2003], you told Mr. 
Gibbons that the BLM expected to receive in excess of a billion dollars 
for the Clark County land that it had yet to sell. Was that an accurate 
estimate?
    Answer. Yes. The information I have been provided shows that the 
BLM has received approximately $2.3 billion since 2004 from the sale of 
public lands in Clark County, Nevada.
                              earle dixon
    Question 11. There have been a number of articles concerning the 
role you played in the release of Mr. Earle Dixon. Can you provide the 
committee with your side of that story?
    Answer. I appreciate the opportunity to respond to this question. 
This case arose from a personnel action I took in 2004. I dismissed the 
BLM project leader who was responsible for coordinating BLM activities 
at the Yerington (NV) mine site and I moved the oversight 
responsibility from the BLM's Carson City Field Office to the BLM's 
Nevada State Office. The Yerington mine is located on 49% federal land 
and 51% private land. The clean up activity at Yerington is a joint and 
cooperative effort between the BLM, State of Nevada, and the EPA as 
prescribed in a Memorandum of Agreement between the three parties.
    I felt this personnel action was appropriate in 2004 and now, five 
years later, I am convinced my decision was the right one. I base my 
assessment on the fact that today, the BLM is working closely and 
cooperatively with both the EPA and the State of Nevada to clean up the 
Yerington mine site while further studies are being completed to 
determine the scope of actions which might be required in the future. 
This was not the case in 2004 when Mr. Dixon was the BLM project leader 
assigned to this cooperative effort.
    In 2004, Mr. Dixon was employed as a term employee (not to exceed 
two years). Shortly after coming on board, Mr. Dixon made statements on 
a conference call with other BLM employees raising questions about the 
competency of state employees working at the mine site. He later 
insinuated that some elected officials at the county level as well as 
the Governor of Nevada were being paid by Atlantic Richfield (ARCO) to 
oppose needed clean up activities at the Yerington mine site and that 
money from ARCO had been used to buy their opposition to listing the 
Yerington mine site as a Superfund project.
    Earle Dixon filed a whistleblower complaint alleging that state and 
BLM officials were working together to cover up critical information 
regarding the environmental impacts at the Yerington mine site. Another 
issue which surfaced is that I was the one who fired Mr. Dixon rather 
than his direct supervisor who did not agree with my decision to 
terminate Dixon. The Department of Labor investigated the Dixon 
complaint and found that I had sufficient grounds to terminate Mr. 
Dixon. After the investigators had issued their findings, Mr. Dixon and 
a PEER attorney then filed a formal complaint with the Department of 
Labor's Office of Administrative Law Judge. A year later, the 
Administrative Law Judge ruled in favor of Mr. Dixon and ordered the 
BLM to pay one year back pay and legal fees.
    While acknowledging and respecting the Judge's decision, I am 
comforted in knowing the progress that has occurred on the ground at 
the Yerington mine site would probably not have occurred if I had not 
made the decision to terminate Mr. Dixon in 2004. I also know the 
cooperation between the BLM, Lyon County officials, and the State of 
Nevada that exists today relating to clean up activities at Yerington 
would not be there if I had not taken this personnel action. The formal 
complaint filed by Mr. Dixon is the first and only formal complaint 
ever filed against me by an employee in my 32 years of public service.
                   energy development on public lands
    Question 12. You may know that this committee passed legislation 
that would allow the Secretary to establish a competitive leasing 
program for wind and solar projects, but he would not be required to do 
so if he finds it is not in the public interest.
    a. What are the shared and differing challenges for the siting of 
large wind and solar installations near recreational areas or National 
Parks relative to oil and gas installations?
    Answer. I know that large scale wind and solar installations and 
oil and gas installations both present challenges in siting. I am aware 
that the BLM has undertaken a series of initiatives to more fully 
understand the impacts of energy development on public lands and to 
establish programs for developing renewable energy in an 
environmentally responsible manner. For example, the BLM conducted a 
Programmatic Environmental Impact Statement (PEIS) for wind energy 
development, signing the Record of Decision (ROD) in January, 2006. A 
similar PEIS is currently underway for solar energy development. 
Additional environmental analyses will also be conducted before any 
specific projects are permitted. If confirmed, I would work 
constructively with all public land users to understand and address the 
challenges of siting energy development on public lands.
    b. Do you think that National Parks or other protected areas have 
or should have effective ``buffer zones'' surrounding them, effectively 
expanding the protected area?
    Answer. I know that the BLM follows a rigorous and open planning 
process to implement its multiple-use mandate. One of the factors 
considered during land use planning is the potential impact of a 
proposed activity to adjacent property, whether the property is 
Federal, State or privately held. If confirmed, I would work with other 
Federal agencies, states, Tribes, local governments, industry and 
public land users to consider conservation and development within each 
landscape setting.
    c. In your opinion, should large energy projects be kept, when 
feasible, at as great a distance as possible from the most heavily 
frequented vacation areas?
    Answer. I know that the BLM planning process seeks to ensure that 
the appropriate use takes place on the appropriate piece of public 
land. The BLM's open planning process provides multiple opportunities 
for public input in order to ensure that stakeholders interests are 
fully considered in the final outcome. If confirmed, I would work with 
governments, industry, public land users and other interested parties 
to balance recreation use and energy development at the local and 
regional levels.
    d. Do you have concerns that your role is in danger of competing 
with the interests of the Park Service in that both will want control 
over energy projects that may be in the same general area as Parks?
    Answer. The Federal Land Policy and Management Act provides the BLM 
with its multiple-use mandate, and one of the Bureau's responsibilities 
is to develop energy resources on the public lands for the benefit of 
the nation. The BLM continues to fulfill that mandate, both through 
lease sales and through the development of renewable energy. Congress 
provided the National Park Service a different mission. If confirmed, I 
would work cooperatively with all agencies of the Department of the 
Interior, under the Secretary's guidance, to fulfill our respective 
missions in a complementary manner that sustains ecosystem health while 
meeting the diverse land use needs of the American people.
    e. In your opinion, what specific criteria should be applied in 
assessing a given activity's potential for disruption of a neighboring 
area, specifically including when roads or other development already 
exists closer to the protected area than some proposed project?
    Answer. It is my view that the BLM's planning process provides for 
full consideration of these various factors. In my experience, the 
BLM's land use plans, and the extensive public involvement they 
encourage, identify and assess the wide range of factors, including 
visual resource management, recreation and travel management, and 
appropriate mitigation measures, that must be considered in any 
specific land management proposal or situation.
                               budgeting
    Question 13. In your opinion, to what extent should the acreage and 
percentage of a given state's BLM-managed lands affect the BLM's budget 
for dealing with issues specific to that State?
    Answer. From my experience with the BLM, I know that the BLM 
assesses a variety of factors in allocating funds to the various 
offices. The amount of BLM land in a State or region can certainly 
affect workload and is a consideration in funding allocation. Other 
factors are also important, such as the relative priority and 
complexity of the work, and the desire and need to provide good 
customer service. I am aware that developing the budgets for the BLM 
requires balancing many different needs throughout the areas that BLM 
manages. If confirmed, I will review the BLM's existing budgeting 
process and assess the need for any changes to these processes.
              raw materials needed for green technologies
    Question 14. I am concerned that, in aggressively pursuing a 
transition to alternative energy technologies, the United States risks 
trading a reliance on foreign sources of oil for a reliance on foreign 
sources of minerals. The demand for minerals is apparent in the use of 
quartz crystal for photovoltaic panels (100% imported), indium for LED 
lighting technologies (100% imported), and rare earths for advanced 
batteries (100% imported).
    a. Do you share this concern and, if so, how can the BLM more 
effectively coordinate with DOE and the USGS to address the potential 
for unintended consequences related to our energy policies?
    Answer. I share this concern and I believe that it is vitally 
important for the DOE, USGS, and the BLM to coordinate land-use and 
energy policy decisions related to mineral development from public 
lands. If confirmed, I would make it the BLM's practice to actively 
seek out the input from these and other Federal agencies, as well as 
from the industry, the State geological surveys, and individual members 
of the public. Having sound and sufficient mineral resource information 
is an important component in ensuring our nation's energy future.
    b. How important do you believe it is that the raw materials for 
clean energy technologies be produced here in the United States?
    Answer. Our national energy security has been inextricably linked 
to our dependence on foreign oil. As the nation transitions to a 
greener energy future relying on renewable energy technology, we should 
evaluate resources that affect our ability to independently implement 
that technology. If confirmed, I would not lose sight of the economic 
and strategic value of resources available through appropriate, 
balanced use of the public lands.
    c. Would you consider the jobs associated with providing the raw 
materials for clean energy technologies to be ``green''?
    Answer. Having managed the largest locatable mineral program in the 
BLM while serving as the Nevada State Director, I am very familiar with 
the relationship between the production of raw minerals and their 
important application to ``green'' technologies. If confirmed, I would 
support environmentally-responsible resource production necessary for 
these green technologies.
                   resources within land withdrawals
    Question 15. This committee regularly considers legislation to 
designate certain federal lands for a particular purpose. Quite often, 
those designations include lands with significant natural resource 
potential that could be locked up if the proposal moves forward. I have 
a standing request that the Interior Department provide very specific 
information on the natural resources that may be rendered unavailable 
by bills before this committee. It is my understanding that the 
Interior Department may require some assistance from DOE to ascertain 
what raw materials are used for which alternative energy technologies.
    Will you commit to coordinating with DOE on my request so that this 
committee has the most accurate information possible related to any 
legislation that we may consider?
    Answer. The United States Geological Survey document titled ``2008 
U.S. Net Import Reliance for Selected Nonfuel Mineral Materials'' 
indicates which minerals the United States is more than 15 percent 
reliant upon from foreign sources. If confirmed, the BLM will work with 
the Department of Energy to find the intersect between those minerals 
and minerals used in ``green'' or ``renewable'' energy.
                          mine veto authority
    Question 16. In the coming months, this committee is preparing to 
spend some time considering reforms to the 1872 Mining Law. The so 
called `mine veto' issue is one that we must understand more clearly.
    a. Can you discuss the existing authorities for deciding whether or 
not to allow mining in a particular area and how changes to that 
existing framework might impact domestic mining?
    Answer. The BLM manages mining activities on the public lands under 
the Federal Land Policy and Management Act. Under that authority, BLM 
has promulgated regulations at 43 CFR subpart 3809 (the ``3809 
regulations,'') which provide the requirements for obtaining approval 
of a mining operation on BLM-administered public lands. These 
regulations require compliance with all pertinent Federal and State 
laws.
    I am advised that Congress is currently considering reform of the 
Mining Law, and the Department will work with Congress to assess how 
particular changes might affect domestic mining.
    b. Under what circumstances can an Interior Secretary say ``no'' to 
mining?
    Answer. I understand that the 3809 regulations provide at least 
three reasons why the Secretary may disapprove a proposed plan of 
operations:

          1. The proposed plan does not meet the filing requirements 
        for a plan of operations outlined in the 3809 regulations.
          2. The proposed mining operation is on lands withdrawn or 
        segregated from the operation of the Mining Law and the mining 
        claims are found to be invalid.
          3. The proposed operations would result in unnecessary or 
        undue degredation of the public lands because the plan would 
        violate, among other things, the regulatory performance 
        standards in the 3809 regulations or other applicable Federal 
        and State laws.

    There may be other applicable laws with which I am not familiar.
                  mining and environmental protection
    Question 17. In the coming months, this committee is preparing to 
spend some time considering reforms to the 1872 Mining Law. A 1999 
National Research Council report to Congress concluded that, ``the 
overall structure of the Federal and State laws and regulations that 
provide mining-related environmental protection is complicated but 
generally effective.'' Do you agree with this finding?
    Answer. I am not familiar with the specifics of the 1999 Report. I 
am aware that there is great interest in pursuing reforms to the 1872 
Mining Law. If confirmed, I look forward to working with the Department 
and Congress on this important issue.
            applying lease sale practices to hardrock mining
    Question 18. In the coming months, this committee is preparing to 
spend some time considering reforms to the 1872 Mining Law. Some have 
continued to insist upon the applicability of leasing to the hardrock 
mineral industry, as opposed to location and entry.
    Can you share with us some of issues that may be encountered in 
attempting to apply to hardrock minerals some of the resource 
management practices that exist for oil, gas, and coal based the 
similarities and differences that exist between those sectors?
    Answer. I understand that the BLM already has experience with 
managing hardrock mineral development under a leasing system. When 
minerals that would be locatable under the 1872 Mining Law on public 
domain lands in the West are found on acquired Federal lands (mainly in 
the east), these same minerals are leased under regulations at 43 CFR 
3500. These are the same regulations that currently apply to potash, 
phosphate and sodium leasing and development. I am aware that there is 
great interest in pursuing reforms to the 1872 Mining Law. If 
confirmed, I look forward to working with the Department and Congress 
on this important issue.
       sufficiency of existing environmental standards for mining
    Question 19. Current BLM guidance, based on the so-called 3809 
regulations, provide for the protection of BLM lands from ``unnecessary 
or undue degradation''.
    Do you believe that the existing legal and regulatory framework for 
hardrock mining is sufficient to protect units of the National 
Conservation System from unnecessary or undue degradation of the values 
for which such units were established in the first place?
    Answer. BLM manages the lands within these areas in accordance with 
the principles and priorities established by the statute or the 
Presidential proclamation creating the National Landscape Conservation 
System (NLCS) unit. In addition, it is my understanding that any valid 
existing right could be exercised in compliance with BLM's surface 
management regulations.
        differentiating between land use and environmental laws
    Question 20. In considering changes to the Mining Law of 1872, it 
is important to remember that we are talking about is a land use 
statute.
    Can you provide us with your views of the legal and practical 
distinctions between federal property laws and federal environmental 
laws?
    Answer. The question is of a legal nature upon which I would defer 
to the Department of the Interior Solicitor, if confirmed. However, in 
general, I am advised that Federal property laws and Federal 
environmental laws are distinguishable primarily because they stem from 
different constitutional authorities and common law principles.
           role of good samaritan provision in mining reform
    Question 21. There is a willingness on the part of many to engage 
in reclamation activities at abandoned mine sites, but often this does 
not happen due to a fear of incurring certain liabilities.
    a. What role do you believe ``Good Samaritan'' provisions can or 
should play in the clean-up of abandoned mine sites?
    Answer. I am advised that the BLM initiated a program to address 
the abandoned mine issue in partnership with the U.S Forest Service, 
the National Association of Abandoned Mine Lands Programs (NAAMLP), the 
National Mining Association (NMA), and Bat Conservation International, 
Inc. (BCI). The program is called ``FAST'' (Fix A Shaft Today) and 
draws upon public-private partnerships to close abandoned mine physical 
safety hazards. This type of voluntary effort is similar to voluntary 
efforts proposed in ``Good Samaritan'' provisions. If confirmed, I 
would work with Congress to encourage similar partnerships to help 
resolve the critical problems associated with abandoned mines.
    b. Is there a risk that eligibility requirements for a ``Good 
Samaritan'' could be too stringent to allow those with actual mining 
and reclamation expertise to qualify?
    Answer. Although I am not aware of the details of the ``Good 
Samaritan'' legislation, I do know that public-private partnerships are 
vital to addressing this critical health and safety issue on the public 
lands. Partners with expertise in mining and reclamation are 
particularly important. If confirmed, I would work with the Secretary 
to ensure utilization of any ``Good Samaritan'' authority that Congress 
might provide as a tool for abandoned mine reclamation.
                             land cleanups
    Question 22. In Alaska, where the BLM still controls about 85 
million acres, the BLM is the largest single landlord. But for cleanup 
of federally paid for oil exploration efforts in the 1980s, there is 
still the need for an estimated $100 million to cap abandoned federal 
wells, not private wells. There is also the need for extensive 
environmental study and science reviews, some being conducted by the 
joint State-Federal North Slope Science Initiative. What can you say 
about the Obama Administration's commitment toward providing the 
funding needed for land management in Alaska in future budgets?
    Answer. I am aware of the importance of the remediation of the 
``legacy wells'' on Alaska's North Slope and the urgency associated 
with this effort. I am informed that, since 2002, the BLM has plugged 
14 wells and has remediated three wells adjacent to the coast and one 
well adjacent to the largest fresh water lake on the North Slope, 
Teshekpuk Lake. I am also informed that, this winter, the BLM will be 
plugging the last high priority coastal erosion well, Drew Point, 
funding for which comes from the American Recovery and Reinvestment 
Act. If confirmed, I would work with BLM Alaska in its ongoing efforts 
to evaluate and address the remaining abandoned wells to protect public 
health and safety and the environment.
    Finally, I am aware that the BLM values the added scientific 
information provided by the North Slope Science Initiative. If 
confirmed, I would commit to examine the funding opportunities for 
Alaska land management, as well as for other western States, as we 
develop our future budget.
                                land use
    Question 23. In your mind, which use is causing the most damage to 
the BLM lands in the Intermountain West: wild horses or ATVs?
    Answer. It is difficult to state categorically that one particular 
land us is more or less harmful than another as such assessments are 
dependent upon a variety of factors, including site-specific conditions 
and the intent and duration of a particular use. Every use of the BLM-
managed public lands has an impact that, if left unmanaged or conducted 
irresponsibly, could result in harmful effects on the public lands. As 
a strong proponent of multiple-use, if confirmed I would work to 
achieve balance between the various multiple uses, including wild 
horses and off-highway vehicle recreation, so that the public lands are 
properly managed.
    Question 24. Which causes more damage to the BLM lands in the 
Intermountain West: your answer to my previous question, or range 
fires?
    Answer. If confirmed, I would work to ensure that wildfire and the 
various multiple-uses on the public land were managed appropriately so 
as to reduce their potentially harmful impacts. Wildfire is a natural 
and essential process throughout the Intermountain West, but the spread 
of cheatgrass and other invasive species has led to large, frequent 
wildfires that threaten communities and land health. While I was State 
Director in Nevada, I initiated an effort to restore the Great Basin 
following a series of large wildfires in the late 1990s. If confirmed, 
I would hope to continue and expand the BLM's efforts to restore 
landscape health and reduce harmful wildfire impacts.
                    suitability of lands for mining
    Question 25. Some contend that Mining Law reform should include an 
opportunity for local officials in towns, tribal leaders and others to 
seek a withdrawal of Federal lands from mining. The Federal Land Policy 
and Management Act of 1976 already contains withdrawal authority, as 
does the Antiquities Act of 1906 and the Surface Mining Control and 
Reclamation Act of 1977. And any member of Congress can introduce 
withdrawal legislation at any time.
    Do you believe that these existing withdrawal authorities are 
sufficient?
    Answer. I understand that Congress is currently considering reform 
of the Mining Law. The Department will work with Congress to assess 
proposals to modify withdrawal authority, which exists with respect to 
Federal lands and resources. If confirmed, I would assist with that 
assessment.
                  approach to wilderness designations
    Question 26. Given your testimony at the Senate Energy Committee 
hearing on July 30, 2002, as well as the testimony you gave at the 
December 3, 2003 hearing in Las Vegas, Nevada, can you tell me why the 
BLM has resisted supporting other legislative proposals that were 
similar to the Southern Nevada Land Management Act (for example the 
Washington County Utah bill Senator Bennett introduced in 2007 or the 
Owyhee bill that Senator Crapo offered in 2007)?
    Answer. If confirmed, I would work cooperatively with Congress to 
resolve wilderness and other land management issues throughout the 
West. It is my understanding that the BLM worked supportively and 
cooperatively with Congress on the Washington County and Owyhee County 
bills.
    If confirmed are you going to advocate for the Nevada approach or 
the more recent BLM stance of opposing land for wilderness proposals?
    Answer. It is my understanding that the BLM has worked 
cooperatively with Congress on a number of wilderness proposals over 
the last several years, and many of those were included in Public Law 
111-11, the Omnibus Public Land Management Act of 2009. I support 
resolving wilderness issues and if confirmed I pledge to work with 
Congress in a spirit of cooperation on these and all other issues 
concerning the BLM.
                            mine permitting
    Question 27. BLM's FY2010 budget includes an additional $2 million 
for the Mining Law Administration Program. As you know from your time 
as head of the State of Nevada's BLM office, permit approvals for large 
mining projects can take a great deal of time to complete, and as a 
result, the U.S. is ranked as one of the worst countries from the 
perspective of obtaining permits. According to Behre Dolbear's 2009 
edition of ``Where Not to Invest'', it takes an average of 5 to 7 years 
to obtain the approvals needed for mine development to commence. As 
Director, how would you ensure that BLM utilizes its additional FY2010 
budget resources to promote a more efficient permitting process?
    Answer. As former BLM State Director of Nevada, I am aware of the 
timeframes associated with approval of permits for mining operations. I 
understand that over the past couple of years timeframes for the 
approval of plans and notices have been reduced. But I also believe 
there is still more work to be done in this area. If confirmed, I would 
work to continue improving efficiencies in the permitting process.
      Response of Robert V. Abbey to Question From Senator Bunning
    Question 1. Wild Burro program and population control--Robert 
Abbey--one of the challenges facing the national wild horse and burro 
program is effective population control. I have met with veterinarians 
that have discussed population control alternative outside of adoption 
or sale. If implemented these alternatives, which largely focus on the 
stallions as opposed to mares, could be more cost effective at 
controlling herd populations. If confirmed, would you support 
reexamining current population control methods?
    Answer. I understand that reducing wild horse population growth 
rates is one of the most significant challenges facing the BLM, and the 
bureau is willing to consider any reasonable proposals to address this 
issue. I am advised that to respond to this challenge, the BLM is 
currently considering adjusting the sex ratios of wild horse herds to 
favor males (stallions or geldings) in order to reduce breeding 
populations. If confirmed, I am committed to working with the Congress 
and stakeholders to examine population control strategies.
 Response of Robert V. Abbey to Question From Senator Senator Cantwell
    Mr. Abbey, over one million acres of prime wildlife and salmon 
habitat adjacent to the proposed pebble mine site in Bristol Bay Alaska 
could be opened to new mining claims. Closed to mining since 1971, 
these wild Alaska lands are integral to Bristol Bay's salmon-supporting 
habitat that is anchored by miles of untamed rivers and feeds a 360 
million dollar commercial and sport fishery comprised of many fisherman 
from Washington State.
    Last year, the Bureau of Land Management finalized its first ever 
Resource Management Plan (RMP) for this area. Despite the rich fish and 
wildlife habitat that this area supports, including two of the world's 
most productive salmon rivers, the BLM recommended that 99 percent of 
its lands in the area be opened to hard rock mining. The RMP is 
particularly problematic because the lands lie close to the proposed 
Pebble Mine, a giant gold, copper and molybdenum deposit.
    Would you, as Director of the BLM, consider a plan revision of the 
Bay RMP that strikes a better balance between mineral development and 
habitat conservation?
    Answer. While I am not familiar with the details of the Bay 
Resource Management Plan, I am advised that BLM-managed lands are 
significantly west and downriver from the proposed Pebble project. If 
confirmed, I would commit to reviewing the Bay Resource Management 
Plan, including the existing withdrawal decisions in the Bristol Bay 
area to ensure that habitat management objectives for public lands in 
this region will be achieved.
      Responses of Robert V. Abbey to Questions From Senator Wyden
    Question 1. I'm pleased that the President recently signed into law 
legislation codifying the National Landscape Conservation System. This 
extraordinary system of BLM lands, which will celebrate its tenth 
anniversary next year, protects the crown jewels of BLM lands and 
waters designated for conservation purposes, including National 
Monuments, Wilderness, National Scenic and Historic Trails, and Wild 
and Scenic Rivers. If confirmed, will you commit to ensure that these 
areas are managed to guarantee protection of the nationally significant 
values they were designated to preserve?
    Answer. I am fully aware that the BLM's National Landscape 
Conservation System is a top priority of Secretary Salazar. Public Law 
111-11, which expands the NLCS by 1.2 million acres, was one of the 
first bills signed into law by President Obama. This historic piece of 
legislation codified the National Landscape Conservation System and 
designated many unique landscapes treasured by the American people. If 
confirmed, I look forward to presiding over next year's tenth 
anniversary celebration of the NLCS. I am strongly committed to the 
conservation and protection of all of the values inherent in the NLCS.
    Question 2. Throughout the West, and in my State, there are dozens 
of towns that have small BLM parcels in the middle of towns and within 
the towns' urban growth boundaries. This seems like both a problem for 
the BLM and for these communities, which could often benefit from 
having the land for city parks or other public uses. I currently have a 
couple bills to transfer parcels of land to counties in Oregon, and 
there are more pending issues in my State that will be coming up on 
land use--including possible land conveyances, land exchanges and 
Wilderness designations. But this is certainly a piecemeal and time 
consuming approach, as is the Agency's Recreation and Public Purposes 
(R&PP) process. I hope that I will be able to work on these issues with 
you going forward. Would you be willing to explore more comprehensive 
ways to address these kinds of land use issues?
    Answer. I appreciate your desire to find a different approach, and 
if confirmed I would be happy to work with you and your staff to 
address the needs of Oregon's communities concerning BLM-managed lands 
located in these communities, including issues related to land 
conveyances, exchanges and wilderness designations.
    Responses of Robert V. Abbey to Questions From Senator Barrasso
                              sage grouse
    Question 1. There are extraordinary sage grouse conservation 
efforts ongoing in Wyoming. The Bureau of Land Management plays a big 
role in the success of this statewide initiative.
    Will you work with the State of Wyoming to find land management 
options that decrease the possibility of listing the sage grouse as 
endangered, while maintaining traditional multiple use?
    Answer. Yes. If confirmed I look forward to working with the State 
of Wyoming on this issue. I understand the State is currently taking 
steps to conserve sage grouse. I am committed to working with Federal, 
State and local agencies to help in this effort and to facilitate 
appropriate resource development.
                        good neighbor authority
    Question 2. Good Neighbor authority is a tool for Federal and State 
land managers to work together to complete land management goals. 
Bipartisan members of the Senate Energy and Natural Resources Committee 
advocate for its approval in all Western States.
    Secretary Salazar was a strong advocate of this policy during his 
time in the Senate. He committed during his confirmation hearing to see 
that the BLM finalizes its legal opinion on the policy.
    Will each of you commit to joining the Secretary in supporting this 
authority?
    Answer. If confirmed, I would join the Secretary in supporting the 
Good Neighbor authority. I know that the BLM received Good Neighbor 
authority for BLM managed lands in the State of Colorado in 2004. I am 
advised that, to date, nine projects have been initiated under this 
authority and it is generally viewed as an effective tool. I support 
the use of the authority, where appropriate, to increase efficiency and 
improve Federal and State coordination in the management of large-scale 
wildfire mitigation, restoration and other land-health issues.
    Question 3. When should we expect the agency to finalize an opinion 
on the [Good Neighbor] policy?
    Answer. I am not aware of any pending legal opinion within the 
Department of the Interior regarding the current Good Neighbor 
authority. Under current law, this authority applies only to the State 
of Colorado for the BLM. I am advised that the BLM is developing policy 
for implementation of the Good Neighbor authority in Colorado in 
response to a recent GAO audit, and expects to have the policy 
finalized by the end of the calendar year.
                        grazing permit renewals
    Question 4. We have a significant problem at the BLM with grazing 
permit renewals. This is a nationwide problem.
    Completing NEPA paperwork takes months, even year, and threatens 
ranchers' livelihood. Currently, we have legislative language in place 
that allows permits to continue while NEPA paperwork is completed. This 
is responsible stewardship and good business. However, there would be 
no need for annual legislation if the agency reliable completed its job 
on time.
    How will you address this complicated management problem?
    Answer. I understand that the congressional permit renewal language 
has been helpful to the BLM in prioritizing the processing of over 
18,000 permits and leases while meeting its NEPA obligations. I also 
know that there remains a need to address this complex management issue 
and examine the tools available to the BLM to more effectively process 
grazing permit renewals. I understand that grazing management is 
complicated by a number of factors, such as increased demands on public 
lands, spread of invasive species, changing wildland fire patterns, 
litigation, and the impacts of climate change. If confirmed, I am 
committed to working with the Congress and stakeholders to implement 
workable strategies to address grazing permit renewals.
    Question 5. What specific policies will you support to make grazing 
management more effective?
    Answer. I am not sufficiently familiar with the existing policies 
or any pending policy reform proposals to make specific recommendations 
at this time. If confirmed, I would ensure that the BLM works closely 
with stakeholders to implement effective policies to address the 
complexities of the grazing issue.
    Responses of Robert V. Abbey to Questions From Senator Landrieu
    Question 1. At present, there are 22 thousand wild horses in BLM-
managed long-term facilities, 10 thousand horses in short-term 
facilities, and an additional 36 thousand horses on the open range. BLM 
suggests that the appropriate management level ``on the range'' is 
approximately 27 thousand horses, thus indicating significant 
overcrowding of the range in addition to the horses currently held in 
short and long-term facilities. Given the rapid reproduction rates of 
wild horses, the situation appears to be unsustainable.
    What is your vision for this program? How would you improve the 
current management regime to better protect America's wild horse 
legacy, while also ensuring that taxpayer's dollars are wisely spent?
    Answer. Having served as the BLM Nevada State Director where nearly 
half of the Nation's wild horses and burros are found, I am very 
familiar with the program and its significant challenges. I know that 
it is a challenge for the BLM to maintain both appropriate populations 
on the range and care for unadopted animals off the range. I fully 
understand that the increasing cost of caring for unadopted animals is 
also a growing concern. If confirmed, I would work to lower the numbers 
of animals on our western rangelands to proper levels and slowing 
population growth rates.
    Question 2. In that same vein, Madeleine Pickens has outlined a 
plan for a non-profit foundation to care for the horses now in holding 
facilities, which she believes can be performed at a substantially 
reduced cost to the United States. Under her plan, the foundation would 
acquire a substantial ranch for the horses, allowing the horses to live 
in a natural setting. Under this plan, Mrs. Pickens maintains that any 
surplus funds accumulated by the foundation would be returned to the 
United States. Mrs. Pickens has proposed that the BLM conduct open 
bidding to select a contractor meeting these guidelines to handle the 
horses. Do you favor this approach?
    Answer. Mrs. Pickens' proposal provides creative and potentially 
constructive ideas for addressing this issue. Mrs. Pickens' willingness 
to put her considerable energy and resources toward this challenge is 
something that I welcome and encourage. If confirmed, I would continue 
to work with Mrs. Pickens and other interested parties to find ways to 
care for these icons of the West and reduce the costs of caring for 
unadopted animals.
     Response of Robert V. Abbey to Question From Senator Sessions
    Question 1. Mr. Abbey, Alabama is affected by several invasive 
species. As Director of the BLM, what degree of priority do you plan to 
place both policy and budget wise on eradication of invasive species? 
Will you be open to considering a much more effective strategy than 
operated under the EQIP Program?
    Answer. The BLM manages scattered parcels of surface management 
lands in the South and East; however, the vast majority of the 256 
million acres of BLM-managed public land surface is in the Western 
United States. I am not aware of any specific invasive species problems 
on BLM-managed lands in Alabama. If confirmed, I would work with my 
staff to better understand the current invasive species issues, and 
ensure that the most effective strategies are implemented and 
appropriate actions are taken on BLM-managed lands. I would also ensure 
that the control and management of invasive species would be one of my 
priorities.
                                 ______
                                 
    Responses of Wilma A. Lewis to Questions From Senator Murkowski
    Question 1. During the 1990s you were involved in management of the 
U.S. Territories. In recent years there has been an inconsistent push 
to solve territorial problems, from the economic problems in American 
Samoa to the economic woes in the Commonwealth of the Northern Marianas 
Islands. We have compact talks coming up with Palau, and continued 
needs for aid to the Republic of the Marshall Islands stemming from our 
past nuclear testing in the atolls. What can you tell us about the 
Obama Administration's commitment to focus on the problems that exist 
in the western territories, not counting the Caribbean?
    Answer. While management of the U.S. Territories would not fall 
under my jurisdiction if confirmed as Assistant Secretary for Land and 
Minerals Management, I have been informed that the White House under 
President Barack Obama has held several high level meetings regarding 
important territorial issues, and has been represented at meetings of 
the Intergovernmental Group on Insular Areas (IGIA). These efforts are 
indicative of the priority attention the Administration is giving 
territorial issues. In addition, President Obama has nominated Mr. Tony 
Babauta to be Assistant Secretary of the Interior for Insular Areas. 
Heretofore, territorial issues have been handled by a deputy assistant 
secretary. This elevation of island issues within to the assistant 
secretary level will bring heightened priority for the territories and 
freely associated States.
                              subsistence
    Question 2. There is one complex issue involving the Department and 
the State of Alaska, management of wildlife not just on federal lands, 
but also on State lands, to protect the subsistence hunting and fishing 
rights of Alaska Natives. Did you hear anything in your preparations 
for this confirmation hearing as to whether the Administration is 
planning any changes in federal subsistence policy or management 
efforts in Alaska?
    Answer. During preparations for my confirmation hearing, I was not 
made aware, formally or otherwise, of any Administration plans to 
change Federal subsistence policy or management efforts in Alaska.
                          oil and gas leasing
    Question 3. Would you support any adjustments (including new or 
higher costs and fees, increased rents, shorter (or longer) lease 
terms, and/or increased royalty rates) for onshore and offshore oil and 
gas leases?
    Would you support or encourage a policy of ``use it or lose it'', 
as proposed during the 110th Congress, when it comes to federally-
issued leases?
    Answer. I believe that review of existing practices in the 
Department's programs is important. Such reevaluations can lead to the 
improvement of existing programs. I know that the Department announced, 
as part of the fiscal year 2010 Budget Proposal, the initiation of a 
comprehensive review of oil and gas leasing and royalty policies, 
including consideration of reform options, such as encouraging the 
diligent development of future leases, that would assure a fair return 
to the American taxpayer. Although it would depend upon the details of 
the changes, I could support adjustments of costs and fees, rents, 
lease terms, or royalty rates if such adjustments would improve the 
Department's oil and gas leasing programs, and are consistent with the 
Department's resource management obligations. I also support President 
Obama's and Secretary Salazar's position that domestic energy 
production can help reduce our dependence on foreign sources of energy 
and that we should encourage production on leased acreage.
                               litigation
    Question 4. Every year, a significant number of federal leases are 
delayed by litigation from environmental and other groups opposed to 
development. As Assistant Secretary, do you anticipate these lawsuits 
having a significant impact on the federal revenues associated with 
onshore and offshore oil and gas development?
    Answer. I am aware that there are several federal oil and gas 
leases and resource management plans that have been challenged in the 
courts. Litigation may slow the development of, and thus the revenues 
from, federal oil and gas resources. If confirmed, I would seek to 
ensure that the Department continues to make fully informed decisions 
that comply with applicable legal requirements.
                               permitting
    Question 5. Companies are often required to obtain or complete 
dozens of permits and plans to develop a typical lease. This can add 
months, if not years, to the length of time it takes to bring resources 
to market. As Assistant Secretary, will you consider or support any 
initiatives to streamline this process, including joint permitting 
efforts and interagency memorandums of agreement?
    Answer. If confirmed, I will seek to ensure that the Department 
continues to identify opportunities for improvement through interagency 
agreements, joint efforts and other means. The efficiency of our 
operations will be an important focus of my attention. I would 
therefore support initiatives that would create efficiencies in the 
permitting process. I fully support seeking greater efficiency and 
coordination in the permitting process, consistent with the 
environmentally responsible development of our important energy 
resources.
                          domestic production
    Question 6. No matter how quickly the use of alternative and 
renewable resources increases, our nation will be heavily dependent on 
oil, natural gas, and coal long into the future. In conjunction with 
our efforts to increase the development of clean energy resources, do 
you agree that it will also be critical to increase conventional 
resource production, at least in the near-term?
    Answer. Secretary Salazar supports increased domestic production of 
conventional resources as part of a comprehensive energy plan. I agree 
with the Secretary that the solution to our nation's energy needs 
requires development of the full range of energy sources available, 
including conventional fuels and renewable resources. If confirmed, I 
would work to ensure that energy resources are identified and 
appropriate access to them is made available consistent with 
environmental safeguards.
                        coal leasing bonus bids
    Question 7. The Federal Coal Leasing Amendments Act of 1976 
provides for a bonus bid system allowing deferred payments to be paid 
in installments and, in fact, requires no less than 50 percent of the 
acreage offered for lease to be under a system of deferred bonus bids. 
The system essentially requires 20 percent of the bid to be paid at the 
time of acceptance and 20 percent on each anniversary for the following 
4 years. Congress authorized this system to promote competition, to 
ensure the public receives a fair return on federal coal leases, and to 
assure diverse sources of coal supply for the nation's economic 
wellbeing.
    a) The elimination of the bonus bid system (as proposed in the 
FY2009 budget request) would force successful bidders to pay hundreds 
of millions of dollars upon the award of the lease, long before they 
are able to realize any return on their investment. Do you believe this 
would undermine congressional intent on the issue of bonus bid payment, 
which was last affirmed in 2005?
    Answer. I understand that the FY 2009 Budget included a proposal to 
change the existing bonus bid system. However, I am not familiar with 
the legislative history underlying the existing system. If confirmed, I 
will learn more about this issue.
    b) Can you explain what has occurred within the leasing program 
since its last legislative review, in 2005, that would warrant the 
abandonment of the system of deferred bonus bid payments?
    Answer. I have been advised that there have been no recent, major 
changes in the coal leasing program.
    c) If the bonus bid program is eliminated and this, in turn, leads 
to less competition, lower lease bids, and/or lower Federal and State 
revenues, would you support its re-instatement?
    Answer. If the bonus bid proposal that would require payment in one 
lump sum is implemented, I would, if confirmed, ensure that the BLM and 
MMS monitor and assess the impacts associated with bonus bid payments. 
I would carefully review those impacts and any other relevant 
information regarding the bonus bid program.
     Responses of Wilma A. Lewis to Questions From Senator Bunning
                        state permitting rights
    Question 1. If confirmed, you will oversee the Office of Surface 
Mining Reclamation and Enforcement. As you know, under the Surface 
Mining Control and Reclamation Act, most coal mining States, including 
my home State of Kentucky, have been granted primacy, placing them as 
the lead permitting and enforcement agency. Through the use of primacy, 
States have the ability to carry out their own regulatory and 
reclamation programs so long as they meet the law's standards. What 
assurances can you give me that OSM will continue to respect States' 
rights and not second-guess States' decisions where they are acting in 
accordance with the law?
    Answer. The Office of Surface Mining Reclamation and Enforcement 
(OSM) has the responsibility in its oversight role to ensure States are 
properly enforcing their regulatory programs. If confirmed, I will work 
with OSM to ensure it is properly carrying out its oversight 
responsibilities while appropriately recognizing state primacy.
                           stream buffer zone
    Question 2. As you know, Secretary Salazar has asked the Department 
of Justice to file a plea with the U.S. District Court requesting that 
the 2008 Stream Buffer Zone Rule be vacated. Aside from striking a 
balance between environmental protections, this rule clarified a long-
standing dispute over how the Surface Mining Law should be applied. If 
vacated, would you support implementing the previous stream buffer zone 
regulations or initiating a new rulemaking process?
    Answer. I understand that the Department of Justice's motion 
requests that the 1983 rule be reinstated. Should the court grant that 
motion, I am informed that the Department of the Interior plans to 
issue interim guidance to clarify how the 1983 rule should be applied 
while the Department determines whether a new stream buffer zone rule 
is necessary. If confirmed, I will work to ensure that this review 
occurs in an expeditious and inclusive manner.
                           permitting delays
    Question 3. A continuing problem with obtaining permits under the 
Surface Mining Act is the inability of the Fish and Wildlife Service at 
the Department of the Interior to perform its consultations in a timely 
manner. Coal miners as well as land developers end up with idled 
capital waiting for the Service to conduct its consultations. The 
previous Administration tried to address that problem through revised 
regulations with tighter timelines for action. Unfortunately, this 
Administration has placed those regulations on hold pending a review. 
If confirmed, will you work with the Director of Fish and Wildlife 
Services and the Assistant Secretary for Fish, Wildlife and Parks to 
develop a plan to effect timely consultations under the E.S.A.?
    Answer. I am not familiar with this issue. If confirmed, however, I 
will appropriately coordinate with the Assistant Secretary for Fish, 
Wildlife, and Parks on this and other potentially overlapping matters 
to help ensure that we carry out our respective responsibilities in a 
timely manner.
      Responses of Wilma A. Lewis to Questions From Senator Wyden
    Question 1. As I indicated to Mr. Abbey in the hearing, BLM manages 
a lot of land in my State. I know you are aware that the BLM is 
responsible for over 2 million acres of truly remarkable forests in the 
western part of my State--known as the O&C Lands--with a unique Federal 
mandate that includes sharing revenue for local county government. 
These lands are also important for threatened and endangered species, 
old growth forests, clean water, clean air and carbon sinks. BLM's 
massive planning effort for its Western Oregon lands (WOPR) under the 
last Administration has stirred up a great deal of controversy and 
legal challenges from both sides of this issue--both timber and 
environmental groups. I know the Administration is reviewing its 
options. I was wary of political meddling in scientific decisions in 
the last Administration and I hope that you will ensure that any 
decision the Agency makes on this is based on sound science but also 
considers the importance that O&C lands have played in Oregon's past 
and the opportunity they have in our collective future. I have been 
circulating a draft proposal of legislation I intend to introduce to 
move forest management on Federal lands in Oregon beyond the old 
conflicts so that the land management agencies cease to get tied up in 
knots trying to advance controversial projects when there is a great 
need for forest health projects that many parties can agree are 
necessary.
    Can you also tell me how you are going to encourage finding a path 
forward for forest management and specifically whether you will work 
with me to help identify new management approaches that help streamline 
forest health projects?
    Answer. Like you, the Department recognizes this is a time for bold 
action and decisions that will resolve long-standing conflicts. If 
confirmed as Assistant Secretary, I am committed to working with other 
Federal agencies, State and local officials, tribes, the timber 
industry, conservationists, and you and other members of the Oregon 
delegation in a collaborative effort to effect meaningful progress.
    Question 2. BLM is our biggest Federal landlord in Oregon. There is 
enormous opportunity for renewable energy development--biomass, 
geothermal, wind--in the State, but it can't be developed without the 
help of Federal agencies that manage most of the land area. Last year, 
BLM initiated a programmatic environmental impact statement (PEIS) for 
development of solar energy projects on BLM land, but that PEIS did not 
include Oregon. If confirmed, what will you do to ensure that all 
States with BLM-managed lands will be included in renewable energy 
development plans, including the pending solar PEIS?
    Answer. It is my understanding that BLM's Solar PEIS focuses on BLM 
lands in the southwest because that area has the greatest potential for 
utility-scale solar development during the document's 20 year planning 
horizon and has received a high degree of interest from industry. I 
have also been informed that any best management practices adopted by 
the BLM as a result of the Solar PEIS will be applicable to all BLM-
administered lands, and that the NEPA analysis completed as part of the 
PEIS will provide valuable information that could be used to assess the 
impacts of possible solar projects in other areas. If confirmed, I will 
work to ensure that the full potential of renewable energy development 
on public lands is understood and considered, and that opportunities 
for environmentally-sensitive development are offered in appropriate 
areas.
    Question 3. As I discussed with Mr. Abbey during the hearing, 
utilization of biomass offers unique opportunities to simultaneously 
address forest health, hazardous fuels reduction, energy production, 
and rural economic development issues. Yet, these opportunities have 
not been adequately developed. If confirmed, what will you do to ensure 
that biomass energy development is integrated into BLM land management 
policies and what actions will you take to work with the Forest Service 
to jointly develop resource plans that will support commercial 
investment in biomass energy projects?
    Answer. Biomass has important clean energy potential. I agree that 
the prudent and sustainable use of biomass as a by-product of forest 
health, hazardous fuels reduction, and other vegetation management 
treatments offers valuable opportunities to support renewable energy 
production as well as rural economic development. If confirmed, I will 
promote BLM efforts to develop and improve biomass use. Also, I will 
ensure that the BLM will continue to use available authorities such as 
stewardship contracting and good neighbor authorities to increase 
biomass utilization and reduce treatment costs. In addition, I will 
work with the Forest Service to further the development of this 
resource, and with partners to increase community awareness of project 
goals, leverage funds for better results, and support local businesses.
    Question 4. Royalty policy and royalty administration at Interior 
has been an embarrassment. MMS has adopted a policy that simply 
abandoned the need to audit oil and gas companies to make sure they pay 
royalties. MMS administrators left out contract provisions in hundreds 
of Gulf of Mexico leases for price thresholds. Oil and gas companies 
have been allowed to unilaterally adjust the royalty amounts they owe, 
even years after the payments are due and the statutory deadlines for 
such adjustments have expired. Royalty-in-kind seems to be a charade 
costing taxpayers more than the old system according to the GAO. What 
are your plans to reform the royalty system?
    Answer. I share Secretary Salazar's commitment to restoring the 
public's trust in MMS and support the strong actions taken by the 
Secretary to enact reform. If I am confirmed, royalty management and 
reform will be among my highest priorities. I will work closely with 
the Secretary and MMS to help ensure that taxpayers are getting fair 
value from the resources they own; audit and enforcement activities for 
the royalty program are robust and effective; operations are conducted 
in accordance with the law; and Department of the Interior employees 
perform their responsibilities with the highest degree of integrity.
    Question 5. In the wake of the conflict of interest scandal at the 
end of the last Congress, Sen. Barrasso and I introduced legislation to 
begin to reform MMS by making the Director a Presidential appointee and 
Senate confirmed. MMS is the only major agency within Interior that 
doesn't have a Senate confirmed director or statutory framework 
governing its responsibilities. A similar provision has now been 
included in legislation approved by the Senate Energy and Natural 
Resources Committee. If confirmed would you support enactment of this 
provision?
    Answer. If confirmed, I would support making the MMS Director 
position a Presidential appointment with Senate confirmation.
     Responses of Wilma A. Lewis to Questions From Senator Barrasso
                              sage grouse
    Question 1. There are extraordinary sage grouse conservation 
efforts ongoing in Wyoming. The Bureau of Land Management plays a big 
role in the success of this statewide initiative.
    Will you work with the State of Wyoming to find land management 
options that decrease the possibility of listing the sage grouse as 
endangered, while maintaining traditional multiple use?
    Answer. Yes. If confirmed I look forward to working with the State 
of Wyoming on this issue. I understand the State is currently taking 
steps to conserve sage grouse. I am committed to working with Federal, 
State and local agencies to help in this effort and to facilitate 
appropriate resource development.
                        good neighbor authority
    Question 2. Good Neighbor authority is a tool for Federal and State 
land managers to work together to complete land management goals. 
Bipartisan members of the Senate Energy and Natural Resources Committee 
advocate for its approval in all Western States.
    Secretary Salazar was a strong advocate of this policy during his 
time in the Senate. He committed during his confirmation hearing to see 
that the BLM finalizes its legal opinion on the policy.
    Will each of you commit to joining the Secretary in supporting this 
authority?
    Answer. If confirmed, I would join the Secretary in supporting the 
Good Neighbor authority. I understand that the BLM received Good 
Neighbor authority in 2004 for BLM-managed lands in the state of 
Colorado. I am advised that, to date, nine projects have been initiated 
under this authority and it is generally viewed as an effective tool. I 
support the use of the authority, where appropriate, to increase 
efficiency and improve federal and State coordination in the management 
of large-scale wildfire mitigation, restoration and other land 
management issues.
    Question 3. When should we expect the agency to finalize an opinion 
on the policy?
    Answer. I am not aware of any pending legal opinion within the 
Department of the Interior regarding the current Good Neighbor 
authority. However, I am advised that the BLM is developing policy for 
implementation of the Good Neighbor authority in Colorado in response 
to a recent GAO audit, and expects to have the policy finalized by the 
end of the calendar year.
                        grazing permit renewals
    Question 4. We have a significant problem at the BLM with grazing 
permit renewals. This is a nationwide problem.
    Completing NEPA paperwork takes months, even years, and threatens 
ranchers' livelihood. Currently, we have legislative language in place 
that allows permits to continue while NEPA paperwork is completed. This 
is responsible stewardship and good business. However, there would be 
no need for annual legislation if the agency reliably completed its job 
on time.
    How will you address this complicated management problem?
    Answer. I understand that the congressional permit renewal language 
has been helpful to the BLM in prioritizing the processing of over 
18,000 permits and leases while meeting its NEPA obligations. I also 
know that there remains a need to address this complex management issue 
and examine the tools available to the BLM to process grazing permit 
renewals more effectively. I understand that grazing management is 
complicated by a number of factors, such as increased demands on public 
lands, spread of invasive species, changing wildland fire patterns, 
litigation, and the impacts of climate change. If confirmed, I am 
committed to working with the Congress and stakeholders to implement 
workable strategies to address grazing permit renewals.
    Question 5. What specific policies will you support to make grazing 
management more effective?
    Answer. I am not sufficiently familiar with the existing policies 
or any pending policy reform proposals to make specific recommendations 
at this time. If confirmed, I would ensure that the BLM works closely 
with stakeholders to develop and implement effective policies to 
address the complexities of the grazing issue.
    Question 6. Your resume is very impressive. You are impeccably 
educated and your experience with the law, revenue and personnel 
management is extensive. This experience and knowledge will be a 
valuable asset in your new capacity.
    However, it doesn't seem you've spend a lot of time kicking around 
the sagebrush. On the ground land management experience is not a part 
of your resume. I'd like to know how you will handle that weakness.
    Working on land management issues is extremely difficult. Here in 
Washington, resource issues are polarized, and the debate centers on 
the ideological divide rather than common sense.
    The health of our lands and our communities is ignored in these 
debates. If we are to have effective management, it will be imperative 
that you put aside politics, and do what's right.
    How are you going to approach land management decisions?
    Answer. As you correctly note, I do not have a background in land 
management issues. If confirmed, I intend to become well versed in 
matters with which I am not currently familiar by reviewing written 
materials; receiving oral briefings; meeting and consulting with 
others, including stakeholders; generally immersing myself in the 
substantive areas; and, where appropriate, viewing and experiencing 
first-hand the lands the Department manages and the challenges it 
faces. As a general litigator for virtually my entire twenty-eight year 
professional career, becoming familiar with new subject areas is 
something that I have done regularly. In so doing, I have developed the 
ability to be a quick study and to handle even the most complicated 
matters successfully. If confirmed, I will approach land management 
decisions in the same manner that I have approached other important 
decisions during my over fifteen years in public service--with a 
careful and objective analysis of the facts and other relevant 
considerations; reasoned judgment, honesty, and integrity. I also 
intend to consult with western Members of Congress and our western 
staff while engaging in ongoing public dialogue on western public lands 
issues.
    Question 7. How will you ensure that the land comes first and 
ideology comes last?
    Answer. Throughout my career in public service, I have focused 
steadfastly on performing the responsibilities with which I am 
entrusted consistent with the letter and spirit of the mission of the 
particular government agency with which I have been associated. If 
confirmed, I will do likewise as the Assistant Secretary for Land and 
Minerals Management.
    Question 8. How do you intend to direct personnel to undertake 
designation of Areas of Critical Environmental Concern on BLM lands?
    Answer. I am aware that the Federal Land Policy and Management Act 
(FLPMA) and its implementing regulations emphasize the importance of 
considering Areas of Critical Environmental Concern (ACECs) in the 
development and revision of land use plans. If confirmed, I would 
ensure compliance with FLPMA's direction and applicable regulations.
    Question 9. What management benefits and drawbacks do you see in 
such designations?
    Answer. I understand that designation of areas with important 
values and resources, such as Areas of Critical Environmental Concern 
(ACECs), results in the necessary special protection of environmentally 
sensitive areas, which sometimes limits multiple-use opportunities. 
Designating these areas, as appropriate, is an important part of BLM's 
land planning responsibilities under the Federal Lands Policy and 
Management Act. One benefit is that such designations enable the BLM to 
protect sensitive biological, cultural and other resources. Another 
benefit is that designation may enhance public appreciation of the 
important areas that exist on public lands. ACEC designations can, 
however, limit multiple-use opportunities, or require more focused or 
intensive management to ensure that multiple-use activities, such as 
recreation and grazing, are managed in a manner that is consistent with 
maintaining an area's special values.
    Question 10. How will you ensure that ACEC nominations are 
evaluated consistently nationwide?
    Answer. I understand that BLM land use plans, which include 
potential ACEC designations, are subject to a rigorous internal 
evaluation process before they are finalized. If confirmed, I would 
seek to ensure that the criteria used to evaluate the nominations are 
clear, consistent and were understood by BLM staff, and are fairly and 
appropriately applied.
    Question 11. How will you ensure that ACEC designations adhere to 
the agency's specific statutory authority under FLPMA?
    Answer. I understand the BLM ACEC guidance is derived directly from 
the BLM's statutory responsibility under FLPMA. This guidance provides 
direction to BLM Field Offices when considering designation of ACECs 
during the BLM's planning process. If confirmed, I will support this 
process.
    Question 12. Congress recently authorized an existing program 
within BLM to manage certain areas within the National Landscape 
Conservation System.
    What benefits and drawbacks to management of land health do you see 
in this program?
    Answer. Congress' recent enactment of the Omnibus Public Lands Act 
represents a pivotal new direction for BLM management of some of 
America's most treasured landscapes. The National Landscape 
Conservation System (NLCS) has an important role in promoting healthy 
lands by conserving, protecting, and restoring designated lands and 
assuring appropriate public access and recreational opportunities. It 
is my understanding that the BLM does not perceive any drawbacks in the 
program.
    Question 13. How will you ensure that administrative designations 
of lands to be managed under this program are handled uniformly and 
appropriately nationwide?
    Answer. Secretary Salazar and I consider the NLCS an important 
addition to the Department's treasured lands portfolio, which is a high 
priority for the Department. If confirmed, I will seek to ensure that 
the policy guidelines and management prescriptions for these lands are 
clear, consistent, and well understood by BLM staff, and that ongoing 
monitoring of their implementation occurs. I look forward to working 
with the Secretary, Congress, BLM and local interests to conserve and 
manage these valued lands, if confirmed.
    Question 14. The NLCS program has been criticized as being heavily 
influenced by outside interest groups. The program and outside groups 
are alleged to regularly consult on pre-decisional matters, swap 
personnel and conduct management under a biased regime.
    How will you address these allegations?
    Answer. I share Secretary Salazar's commitment to the highest 
standards of ethical conduct and integrity throughout the Department. I 
am not familiar with the details of this matter. However, if pursuant 
to an investigation it is determined that inappropriate conduct has 
occurred, I will take the necessary steps to correct the problem and 
restore integrity to the program's operations.
    Question 15. Do you see any weakness within the program making it 
more susceptible to outside interest groups' influence?
    Answer. I am not sufficiently familiar with the NLCS program to 
assess any possible weaknesses that would make it more susceptible to 
influence by outside interest groups. Working with stakeholders is an 
important aspect of the Department's mission, provided that such 
contact occurs in accordance with the law and consistent with the high 
ethical standards that should guide all of our endeavors.
    Question 16. How will you address the tendency for bias in all 
management agencies under your direction?
    Answer. I have had the privilege of serving in senior government 
positions, including as Inspector General for the Department of the 
Interior and United States Attorney for the District of Columbia, that 
have required the exercise of independent, objective decision making. 
If confirmed, I intend to bring those experiences to bear in my new 
position--both personally and in the agencies within my purview. I will 
seek, through a variety of efforts--including my leadership by example, 
regular monitoring of our operations and activities, informed external 
input, and communications with the bureau directors and career staff 
regarding our role and responsibilities as public servants--to create 
an environment that promotes responsible decision making in the public 
interest.
    Question 17. How will you direct personnel to handle interest 
groups that might help DOI programs in one instance, but unduly 
influence programs in other instances?
    Answer. If confirmed, I will direct personnel to handle contacts 
with all interest groups fairly and evenhandedly--never abdicating our 
role to exercise our independent judgment consistent with our mission 
and in the public interest, or our responsibility to act with honesty, 
integrity and in accordance with the highest ethical and professional 
standards, while remaining accessible and transparent.
    Question 18. Last year, the Interior Department's IG released a 
report detailing corruption and other misconduct by employees at MMS. 
Secretary Salazar has taken steps to address the issue.
    What is your plan to restore integrity and accountability at MMS 
and to prevent this type of behavior in the future?
    Answer. Secretary Salazar has already made good progress on this 
challenge and, if confirmed, I would continue his efforts. Integrity in 
government operations has been a central focus of mine during my 
Federal career. I learned this core value at a young age, from the 
example set by my parents, who were both long-serving public servants. 
If confirmed, I would bring those deeply held views and values to my 
efforts as Assistant Secretary. I would examine the extent to which 
recommendations contained in the Inspector General's report have been 
implemented, and ensure that those efforts continue. I would also 
ascertain if there are other corrective measures that need to be 
adopted. In addition, if confirmed I would lead by example, and ensure 
that the expectations of excellence, service with integrity, 
accountability, and transparency are clear to all of those who serve 
under the supervision of the Office of the Assistant Secretary.
                                grazing
    Question 19. There is more to public lands grazing issues than 
meets the eye. Federal lands across the West are interspersed with 
private lands. Most often, ranch families own the most fertile lands 
for agriculture and wildlife. These families depend on access to 
grazing in order to run their business and sustain their private lands.
    When we consider policy for federal lands, we must consider the 
health of the entire landscape--private and public alike.
    Do you believe that grazing should continue on public lands?
    Answer. Livestock grazing is an important and productive part of 
western public lands management. Under BLM's multiple use mandate, it 
is important to continue this use.
    Question 20. Will you advocate reductions in grazing on public 
lands?
    Answer. Well managed grazing can benefit public rangelands. If 
confirmed, I would ensure that the BLM continues to seek an appropriate 
balance between stewardship and use of the public lands in all of the 
BLM's multiple resource management programs. Until I have had an 
opportunity to learn more about the specifics of the grazing issue, I 
am unable to comment on changes to the policies.
    Question 21. How will you address the issues of adjoining public 
and private lands?
    Answer. I understand that BLM has a long tradition of working 
collaboratively with adjacent public and private landowners. I support 
collaborative relations with adjacent landowners.
    Question 22. In 1980, the Secretary of the Interior approved 
Wyoming's program to administer the Surface Mining Control and 
Reclamation Act (SMCRA) for surface coal mining and reclamation 
operations on non-Federal and non-Indian land in the State.
    Will you seek to insure that the Office of Surface Mining does not 
second guess State decisions where they are acting under the primacy 
provisions of the law?
    Answer. The Office of Surface Mining Reclamation and Enforcement 
(OSM) has the responsibility in its oversight role to ensure States are 
properly enforcing their regulatory programs. If confirmed, I will work 
with OSM to ensure it is properly carrying out its oversight 
responsibilities while appropriately recognizing state primacy.
    Question 23. In March 2006, the Wyoming Secretary of State 
submitted an amendment to its Coal Regulatory Program (referred to 
Wyoming Rule Package 1-U) proposing change to the rules governing self-
bonding requirements. The rule included important additions and 
revisions designed to address Wyoming-specific circumstances taking 
into account the substantially larger size of the surface coal mines in 
the State. It is my understanding that three years later the proposal 
is still awaiting approval by the Office of Surface Mining. What has 
caused the delay?
    Answer. I have not been briefed on this issue. If confirmed, I will 
review the issue and would be pleased to discuss it further with you.
    Question 24. What is the status of the Wyoming Rule Package 1-U?
    Answer. As I indicated, I have not been briefed on this issue. If 
confirmed, however, I will look into this matter and would be pleased 
to discuss it further with you.
    Question 25. What steps remain in order for the rule to be 
finalized?
    Answer. As noted in my previous responses, I have not been briefed 
on this issue. If confirmed, I will review the matter and would be 
pleased to discuss it further with you.
    Question 26. Will you commit to ensuring this rule is finalized?
    Answer. If confirmed, I will commit to reviewing this matter and 
ensuring that OSM makes a decision.
    Question 27. The Mineral Leasing Act provides for the deferred 
payment of bonus bids for coal leases in equal installments. Under 
current regulations, federal coal lessees pay the bonus in five equal 
installments.
    The current system makes sense because cost is so significant--the 
average bonus bid for a federal coal lease is $60 million. The Interior 
Appropriations bill recently passed by the House requires full payment 
up front.
    Requiring payment of the bonus bid in one up front payment would 
undermine domestic coal production, exclude smaller companies that lack 
the financial resources, and likely reduce government revenues from 
coal leasing in the long run.
    Do you think the House passed provision puts smaller coal companies 
at a disadvantage?
    Answer. I am not sufficiently familiar with all of the relevant 
information to provide an informed response to this question. If 
confirmed, I will learn more about this issue.
    Question 28. Will you oppose this provision in the Interior 
Appropriations bill?
    Answer. I am not sufficiently informed in order to take a position. 
If confirmed I will examine the bill.
                                 ______
                                 
   Responses of Richard G. Newell to Questions From Senator Murkowski
                               eia budget
    Question 1. The Administration's FY2010 budget request includes 
$133 million for EIA, which represents an increase of 20 percent 
compared to this year. The additional funding would be used to ``to 
improve energy data and analysis programs.'' Can you describe in detail 
how you would use this funding, if confirmed?
    Answer. While I have not been privy to the decisions behind this 
year's budget request, I do believe there are areas where the EIA could 
effectively use additional resources to improve its work. In fact, I 
think the availability of these additional resources could 
significantly influence EIA's ability to effectively respond to the 
important challenges it faces. As I understand it, of the $22.5 million 
increase requested for EIA in the Administration's FY 2010 budget, 
$17.2 million would provide funding for three new initiatives. First, 
the budget provides for a new interdisciplinary team that would focus 
on understanding the roles of futures markets' trading behavior and oil 
market fundamentals in short-term oil price formation and on increasing 
public understanding of price formation. Increasing EIA capacity in 
this area is a priority for me, as I know it is for you and other 
members of Congress. Second, the budget would expand and strengthen 
EIA's Residential and Commercial Buildings Energy Consumption Surveys 
for 2010 and beyond to provide better data for benchmarking and 
performance measurement of weatherization and other energy efficiency 
programs. Third, the budget provides for improved data collection in 
oil and refined products markets to improve both short forecasting and 
long-term projection capabilities. In addition, the increased resources 
compared with the FY 2009 level would support the National Energy Model 
Replacement Project, which focuses on comprehensively updating EIA's 
long-run energy modeling capabilities. This multi-year effort will keep 
EIA's modeling tools relevant in areas where the energy sector has 
undergone significant structural change since the National Energy 
Modeling System was originally launched in the early 1990's.
                       speculation and oil prices
    Question 2. Given your previous work, what is your opinion on the 
role that speculation in oil futures is playing on energy prices here 
and globally?
    a. What are the leading impacts on prices and how are global market 
conditions changing the traditional price inputs for energy?
    Answer. The oil market, as you know, has gone through a period of 
increased volatility in the past 18 months. As I indicated at my 
nomination hearing, I believe there are a wide variety of factors 
involved in oil price movements, including financial market activity 
and its interaction with energy markets. Speculation is one factor that 
enters into the oil price equation along with other factors that can 
affect energy markets at any one point in time including, in my view, 
the underlying economic situation and outlook, both in the United 
States and globally; traditional market fundamentals such as 
inventories, demand, and spare production and refining capacity; 
geopolitical events, such as unrest in Nigeria and Iran; and the value 
of the U.S. dollar as it fluctuates vis-a-vis other currencies.
    One of EIA's main roles is to bring transparency to the operation 
of energy markets, in order to encourage market efficiency. If 
confirmed, I would therefore intend to take a fresh look at the oil 
market speculation issue, in conjunction with EIA's ongoing oil market 
analysis. I also want to carefully assess EIA staff qualifications and 
work aggressively to remedy any skills gaps in this important area.
    b. In your opinion, should EIA play a role in regulating or more 
intensively investigating commodity futures?
    Answer. EIA is not a regulatory or enforcement agency, such as the 
Commodity Futures Trading Commission (CFTC) or the Federal Trade 
Commission (FTC), but EIA has conducted energy market analyses in 
recent years. In addition, it is my understanding that EIA has been 
engaging with the CFTC on the interaction of energy and financial 
markets, since CFTC has access to data that EIA does not have. If 
confirmed, I would certainly want to enhance and expand that 
interagency engagement, with the aim of strengthening EIA's oil market 
analysis through improved use of financial data. I am also aware of the 
additional data-gathering activity that EIA would undertake with the 
CFTC pursuant to energy legislation recently adopted by the committee.
                                biofuels
    Question 3. In the past, EIA has been skeptical that domestic 
biofuel production will keep pace with congressionally-mandated levels. 
The agency's Annual Energy Outlook, for example, projects that the 
current target--36 billion gallons per year--will be exceeded by 2030 
rather than 2022. Do you agree with this assessment? Please describe 
your views on biofuels, particularly with regard to how quickly you 
think their production can displace substantial amounts of petroleum.
    Answer. The Energy Independence and Security Act of 2007 (EISA) 
established the Renewable Fuel Standard program, targeting an increase 
in the volume of renewable fuel to be blended into gasoline from 9 
billion gallons in 2008 to 36 billion gallons by 2022. Of the 36 
billion gallons, 21 billion gallons is targeted to come from advanced 
biofuels (as opposed to corn starch), which depend on technologies that 
are still developing. EISA also provides for waivers and modification 
of required volumes under certain circumstances. As the question notes, 
the reference case projections in EIA's 2009 Annual Energy Outlook do 
not show the 36 billion gallon target being met until 2030, implicitly 
assuming that waivers would be granted in the intervening period. While 
the conditions underlying EIA's projection appear to be within the 
range of plausible scenarios, I have not had the opportunity to closely 
assess the relevant detailed assumptions. More generally, I would 
expect the speed with which biofuels can displace petroleum to depend 
on a number of factors, including: the technological readiness and cost 
of necessary process technologies; the availability and cost of biomass 
feedstocks; the availability and cost of investment funds and other 
inputs (e.g., natural gas); the level of biofuels support policies 
(e.g., tax credits, standards, tariffs); the presence of necessary 
distribution networks; and the price of competing fuels, especially 
oil.
                       climate change legislation
    Question 4. You have written extensively about climate change 
throughout the course of your career. Given your depth of knowledge on 
the subject, can you share your thoughts on the Waxman-Markey bill that 
recently passed the House of Representatives? With everything it 
includes--all the concessions that have already been made--do you 
believe Waxman-Markey would adequately reduce domestic emissions 
without impairing our economy?
    Answer. I am familiar with the basic structure of the Waxman-Markey 
legislation. The bill has at its core a ``cap-and-trade'' system that 
is designed to substantially reduce greenhouse gas emissions over the 
next 40 years. The cap-and-trade system allows for domestic and 
international offsets, includes cost-containment measures, and 
allocates allowance value to a variety of purposes. The bill also 
includes other policies and incentives designed to increase renewable 
energy, energy efficiency, carbon capture and storage, and to serve a 
range of other purposes. Clearly, this is a complex piece of 
legislation, one that should be evaluated in terms of its environmental 
effectiveness, its impacts on the economy, and its achievement of other 
energy goals. If confirmed as EIA Administrator, I would not view it as 
my role to offer an opinion about the adequacy of the bill's emissions 
targets, but I would certainly expect to offer analysis of the impacts 
of the legislation on the energy sector and the economy. I understand 
that the EIA is in the process of completing such an analysis at 
present. If confirmed, I look forward to reviewing this work when it 
becomes available, and to continue working with Congress and the 
Administration to provide unbiased analysis to inform the ongoing 
energy and climate change policy debate.
                       energy industry employment
    Question 5. As the United States transitions to cleaner sources of 
energy, how many new jobs can we realistically expect to create on a 
net basis? Do you believe that Waxman-Markey, by adding a significant 
price to carbon dioxide emissions and thereby increasing the price of 
more than 80 percent of the United States' energy supply, will generate 
millions of new jobs? Are those jobs desirable from the standpoint of 
market and labor efficiency? If you are unable to provide answers to 
these questions, would you be willing to work with the Bureau of Labor 
Statistics to shed light on many of the ``green jobs'' claims being 
made?
    Answer. Analysis of the employment impacts of energy and 
environmental policies has not been a specific focus of my past 
research, and I have not analyzed this issue in the specific context of 
the Waxman-Markey bill. Generally speaking, however, aggregate 
employment in the economy tends to be determined more by overall 
macroeconomic conditions than by specific energy or environmental 
policies. As I mentioned above, the EIA is currently working on a 
report on the House-passed bill. I look forward to reading that 
analysis, including any employment impacts estimated therein. If 
confirmed, I would also be happy to work with BLS to examine green jobs 
data.
                               eia's role
    Question 6. As stated on EIA's website, the agency is tasked with 
providing ``policy-neutral data, forecasts, and analyses to promote 
sound policy making, efficient markets, and public understanding 
regarding energy and its interaction with the economy and the 
environment.'' In recent years, however, lawmakers on both sides of the 
aisle have expressed their unhappiness with the perceived 
politicization of information released by EIA. As Administrator, will 
you commit to ensuring that all materials produced by EIA are objective 
and free of political influence?
    Answer. Yes. I believe the production of independent, policy-
neutral, and unbiased forecasts and analyses is an essential tenet of 
EIA's mission.
                            anwr methodology
    Question 7. Those who oppose the development of the 1002 Area of 
ANWR, including several members of this committee, regularly cite past 
EIA analyses as evidence that supply from that area (at a mean estimate 
of 1 million barrels of oil per day) would have little impact on the 
price of oil. At a hearing held by this committee in March 2008, 
however, Administrator Caruso testified that adding 100,000 barrels of 
oil per day to the Strategic Petroleum Reserve could increase oil 
prices by $2 per barrel. In a subsequent letter to Rep. Jack Kingston, 
Administrator Caruso acknowledged that if the ``same methodology and 
set of circumstances and assumptions'' underlying that response were 
applied to the development of the 1002 Area, ``prices could be expected 
to decline by up to $20 per barrel.''
    This series of events brings about two important questions:
    a. If confirmed, will you ensure that all EIA analyses are 
conducted in a fair, consistent manner--that is, with standardized 
methodologies--even if the proposal under consideration runs contrary 
to the administration's preferences?
    Answer. Yes. If confirmed, I would ensure that all EIA analyses are 
conducted in a fair and consistent manner, even if the proposal under 
consideration runs contrary to Administration policies. In the case of 
ANWR and other oil supply proposals, fair and consistent treatment of 
timing issues, which affect the size of demand and supply responses, is 
especially important.
    b. Will you commit to re-evaluating the impact that the 1002 Area's 
development would likely have on the price of oil, as well as the 
economic and budgetary impacts likely to be associated with production, 
under the same set of standards as EIA will use to examine oil price 
impacts from increased supply from foreign sources or the Strategic 
Petroleum Reserve?
    Answer. Yes, I will commit to re-evaluating in a fair and 
consistent manner the development of the 1002 Area. It is important to 
note, however, that modeling oil market responses to short-term changes 
in supply is different in some respects from modeling market responses 
to long-term changes in supply. This holds regardless of the reasons 
for such increases.
                        energy price forecasting
    Question 8. While I have great respect for the difficult task that 
the EIA and all energy-price forecasters have in forecasting energy 
prices, I have to say that the agency's performance has been wildly off 
in recent years. When prices were climbing, EIA's forecasts markedly 
underestimated price hikes. When the economy collapsed last fall, EIA 
somewhat underestimated the price drop. Do you foresee any changes in 
your modeling process that you can make to make your forecasts 
marginally more accurate? Can you talk about what, if anything, you 
want to do differently at EIA to improve the reliability of your energy 
forecasts?
    Answer. I would consider the continued improvement in EIA's 
modeling capabilities to be one of my most important activities, if I 
am confirmed. Good modeling requires good data, so the two go hand in 
hand. As I noted in my response to question #2, there are myriad 
factors affecting the oil market at any given time. It is extremely 
difficult to dissect the individual effects of these factors in the 
past, and harder still to forecast how they might unfold in the future. 
It is important, therefore, to provide a sense of the degree of 
uncertainty surrounding these forecasts, along with one's best 
estimate. Along these lines, I am advised that EIA is developing oil 
price uncertainty ranges (i.e., confidence intervals) which will be 
incorporated in the near future into EIA's short-term modeling and 
monthly energy outlook. With regard to long-term modeling, EIA has 
underway a multiyear effort, begun this fiscal year, to comprehensively 
update its aging National Energy Modeling System. As I have mentioned 
to several Senators, I believe that EIA should consider and communicate 
the range of uncertainty surrounding price forecasts. If confirmed, I 
would plan to examine these and other efforts, as well as the views of 
outside experts, to ascertain how best to assure that the agency is 
doing the best job it can.
                           hydro forecasting
    Question 9. EIA's recent reports have forecast little to no growth 
in the hydropower industry. Yet, as a result of new economic and other 
incentives, hydro companies are developing new projects and pursuing 
significant upgrades to existing facilities. We also know that there is 
tremendous potential for ocean, tidal and in-stream hydrokinetic 
projects. FERC currently has close to 34GW of potential projects under 
investigation from all sectors of the hydropower industry, including 
conventional, pumped storage and new waterpower applications. Can you 
comment on this apparent discrepancy, and commit, if confirmed, that 
EIA will reevaluate how it forecasts growth in the hydropower industry?
    Answer. For conventional hydroelectricity, it is my understanding 
that EIA relies on a site-by-site database of potential new capacity. 
This database includes about 22 gigawatts of potential new capacity, 
although much of this capacity is currently assumed not to be 
economically viable because of high capital costs and environmental 
concerns.
    It is also my understanding that EIA does not estimate resources 
for a variety of pre-commercial renewable technologies including tidal/
in-stream hydropower; wave, or ocean thermal technologies in early 
stages of research and development. In most cases this is the result of 
insufficient data on resource cost and availability and/or technology 
cost and performance characteristics. With future research and 
development and changing market and policy conditions, some of these 
resources could become commercially viable. As technologies approach 
this point of commercial introduction, improved data should be 
available to allow their incorporation into EIA projections. My own 
specialization in the economic issues related to the research, 
development and deployment of advanced technologies, especially energy 
technologies, is directly applicable to consideration of how advanced 
hydroelectric technologies and other advanced technologies might be 
incorporated into long-term energy projections. If confirmed, I plan to 
delve into EIA's methodologies for a number of forecasts, including 
hydropower capacity.
     Response of Richard G. Newell to Question From Senator Bunning
                                  iran
    Question 1. Dr. Newell, the Energy Information Administration 
reports on Iran's energy sector have been a valuable resource in 
developing U.S. Iran foreign policy. The reports have identified 
companies investing in Iran in violation of U.S. sanction laws as well 
as exposing Iran's vulnerability to a cutoff of refined petroleum 
imports. If confirmed, will you ensure the E.I.A continues to publish 
timely, neutral, and in-depth analysis of Iran's energy sector? 
Including the names of those companies investing in Iran's energy 
sector?
    Answer. I understand that EIA publishes periodic reports about the 
energy sector in Iran and in a number of other countries. If confirmed, 
I plan to continue this work and would have no plans to break with past 
practices regarding inclusion of information about investment trends or 
other contents of such reports.

                                    

      

</pre></body></html>
